                   National Aeronautics and Space Administration

                              Office of Inspector General




                                Investigative Summary

    Regarding Allegations that NASA Suppressed Climate Change Science and

           Denied Media Access to Dr. James E. Hansen, a NASA Scientist




                                      June 2, 2008




      signed
____________________________________

Kevin H. Winters
Assistant Inspector General for Investigations
                                             TABLE OF CONTENTS


Executive Summary .........................................................................................................1

I.      Investigative Scope .................................................................................................3

II.     Parties in Conflict: NASA’s Climate Science Community and the NASA
        Headquarters Office of Public Affairs ....................................................................6

III. Statutory Standards Regarding Scientific Suppression and Media Access ............10

IV. Allegations and Instances of Censorship and Suppression.....................................15

V.      Allegations and Instances of Improper Denial of Media Access ...........................32

VI. NASA’s Response to Allegations of Suppression, Censorship, and
    Denial of Media Access ..........................................................................................43

VII. Conclusion ..............................................................................................................47

Appendixes

A.      NASA-wide e-mail requesting information on alleged suppression
        and censorship of science concerning climate change

B.      NASA Organizational Chart

C.      E-mail: “Nov. 2004 Requests to Reduce Climate Change Releases”

D.      NASA Management’s Comments

E.      NASA Office of Inspector General Evaluation of Management’s Comments

F.      14 CFR Ch. V Part 1213 (1-1-08 Edition)
Executive Summary. On September 29, 2006, 14 United States Senators cosigned a
letter to the NASA Inspector General to request a formal investigation into allegations of
“political interference” with the work of scientists at NASA. In particular, the letter
conveyed the Senators’ concern with apparent and “repeated instances of scientists . . .
having publication of their research and access to the media blocked, solely based upon
their views and conclusions regarding the reality and impacts of global warming.” The
letter also identified areas of specific concern coupled with a request for this Office “to
conduct a full and thorough investigation into the suppression of science and censorship
of scientists at [NASA].”

Accordingly, the NASA Office of Inspector General conducted an administrative
investigation to examine reports of alleged “political interference,” predominantly by
senior NASA Headquarters Office of Public Affairs officials, with the work of NASA
scientists pertaining to climate change—to include whether NASA inappropriately
prevented one of its scientists, Dr. James E. Hansen, from speaking to the media in
December 2005.

Our investigation found that during the fall of 2004 through early 2006, the NASA
Headquarters Office of Public Affairs managed the topic of climate change in a manner
that reduced, marginalized, or mischaracterized climate change science made available to
the general public through those particular media over which the Office of Public Affairs
had control (i.e., news releases and media access). We also concluded that the climate
change editorial decisions were localized within the NASA Headquarters Office of Public
Affairs; we found no credible evidence suggesting that senior NASA or Administration
officials directed the NASA Headquarters Office of Public Affairs to minimize
information relating to climate change. To the contrary, we found that once NASA
leadership within the Office of the Administrator were made aware of the scope of the
conflict between the Office of Public Affairs and scientists working on climate change,
they aggressively implemented new policies with a view toward improved processes in
editorial decision-making relating to scientific public affairs matters.

Further, it is our conclusion that the NASA Headquarters Office of Public Affairs’
actions were inconsistent with the mandate and intent of NASA’s controlling
legislation—the National Aeronautics and Space Act of 1958 1 (Space Act) and NASA’s
implementing regulations—insomuch as they prevented “the widest practicable and
appropriate dissemination” of information concerning NASA’s activities and results.
While we could not substantiate that Administration officials employed outside NASA
approved or disapproved or edited specific news releases, we do, however, find by a
preponderance of the evidence 2 that the claims of inappropriate political interference
made by the climate change scientists and career Public Affairs Officers were more
persuasive than the arguments of the senior Public Affairs officials that their actions were
due to the volume and poor quality of the draft news releases. Although the scientific

1
    The National Aeronautics and Space Act of 1958, Pub. L. No. 85-568, 72 Stat. 426 (codified as amended
    at 42 U.S.C. § 2451 et. seq. [2007]).
2
    Preponderance of the evidence is a standard of proof that simply requires that the matter asserted seems
    more likely true than not.


                                                      1
information alleged to be “suppressed” appeared to be otherwise available through a
variety of Agency forums, we cannot reconcile that the Space Act would permit any
purposeful obfuscation of scientific research by the Agency in any news dissemination
forum as “appropriate” under the Act.

The supporting evidence detailed in this report reveals that climate change scientists and
the majority of career Public Affairs Officers strongly believe that the alleged actions
taken by senior NASA Headquarters Public Affairs officials intended to systemically
portray NASA in a light most favorable to Administration policies at the expense of
reporting unfiltered research results. Senior NASA Headquarters Office of Public Affairs
officials (political appointees 3 ) deny such actions, claiming that many of the proposed
news releases were poorly written or too technical in nature for meaningful broad public
dissemination.

With respect to NASA’s climate change research activities, we found no evidence
indicating that NASA blocked or interfered with the actual research activities of its
climate change scientists. In contrast to our findings associated with the NASA
Headquarters Office of Public Affairs, we found that NASA systematically distributed its
technical climate change research throughout the scientific community and otherwise
made it available through a variety of specialized forums, such as scientific journals,
professional conferences, and public appearances by NASA scientists. Further, our
recent audit of NASA’s formal process for releasing scientific and technical data
resulting from research conducted by its employees and contractors found no evidence
that the process was used as a means to inappropriately suppress the release of scientific
or technical data at the four NASA Field Centers reviewed. 4 Of the 287 authors surveyed
at those Field Centers, none indicated that they had experienced or knew of someone who
had experienced actual or perceived suppression of their research by NASA
management. 5 In short, the defects we found are associated with the manner of operation
of the NASA Headquarters Office of Public Affairs and are largely due to the actions of a
few key senior employees of that office.

Regarding media access, our investigation confirmed that, contrary to its established
procedures, the NASA Headquarters Office of Public Affairs declined to make one of
NASA’s scientists, Dr. James E. Hansen, available for a radio interview with National
Public Radio in December 2005. Our investigative efforts revealed that NASA’s
decision was based, in part, on concern that Dr. Hansen would not limit his responses to
scientific information but would instead entertain a discussion on policy issues. NASA
maintains that the decision to deny media access to Dr. Hansen was unilaterally made by
a junior Schedule C political appointee in the NASA Headquarters Office of Public


3
    The term “political appointee” in this report refers to two categories of appointments—Schedule C and
    Non-Career Senior Executive Service.
4
    Goddard Space Flight Center, Johnson Space Center, Langley Research Center, and Marshall Space
    Flight Center.
5
    NASA Office of Inspector General, “Final Report on NASA’s Actions Needed to Ensure Scientific and
    Technical Information Is Adequately Reviewed at Goddard Space Flight Center, Johnson Space Center,
    Langley Research Center, and Marshall Space Flight Center” (IG-08-017, May 21, 2008).


                                                     2
Affairs. The evidence, however, reflects that this appointee acted in accord with the
overall management of climate change information at that time within the NASA
Headquarters Office of Public Affairs.

Regardless of the aforementioned Space Act standards, we otherwise found that the
Agency mismanaged this activity insomuch as it occurred over a sustained period of time
until senior management was eventually alerted by congressional staff and the media.
That senior management did not know before then was emblematic of ineffective internal
management controls such as a dispute resolution mechanism between contributing
scientists and public affairs officials. This is especially true in that relations between
NASA’s climate change science community and the NASA Headquarters Office of
Public Affairs had somehow deteriorated into acrimony, non-transparency, and fear that
science was being politicized—attributes that are wholly inconsistent with effective and
efficient Government. The investigation also uncovered that one of the underlying
contributing factors of these problems may have, in fact, been in the very structure of the
NASA Headquarters Office of Public Affairs, where political appointees were placed in
the seemingly contradictory position of ensuring the “widest practicable” dissemination
of NASA research results that were arguably inconsistent with the Administration’s
policies, such as the “Vision for Space Exploration.”

That said, the core issue of how our Government in general, and NASA in particular,
continues to manage the important issue of climate change information is worthy of
careful consideration by both the Executive and Legislative branches of Government—
and is an issue that the NASA Office of Inspector General will continue to monitor from
an Agency oversight perspective.

We provided a draft of this Investigative Summary to the NASA Administrator on
March 6, 2008, for the purpose of soliciting the Agency’s comments. The Agency’s
comments (Appendix D) were received on April 18, 2008. Our evaluation of those
comments is also provided (Appendix E).


I. Investigative Scope

This was an administrative investigation conducted by the NASA Office of Inspector
General. As such, this was not a criminal inquiry—with its concomitant standards
relating to whether facts satisfied the required “elements” of an alleged offense.
Nevertheless, administrative investigations such as these are driven by standards as well,
albeit sometimes broader than their criminal counterparts, depending on the subject
matter. Our first challenge, therefore, was identifying the possible legal or regulatory
standards reasonably raised by allegations of scientific censorship and denial of media
access.

As discussed below, we identified NASA-related statutes and regulations that were
germane to this issue as well as a body of work that discusses the subject of scientific
suppression in general. The Space Act, NASA’s seminal legislation was our primary
source of applicable legislation; but we also examined this case through the evaluative


                                             3
penumbra of the Inspector General Act of 1978 6 —i.e., to examine whether NASA’s
actions promoted economy, efficiency, and effectiveness in Government. We noted at
the outset of our investigation that many of the allegations seemed to indicate a lack of
internal management controls or simple noncompliance with ones then existing. For
example, the alleged improper political 7 interference with dissemination of climate
science research and dysfunction between the NASA Headquarters Office of Public
Affairs and a group of Agency scientists had apparently occurred unbeknownst to senior
NASA leadership over a sustained period of time. Assuming that was true, our efforts
attempted to identify relevant Agency internal management control systems that either
were not working or simply needed to be built.

Being an administrative investigation, our investigators had limited compulsory powers
at their disposal; tools such as grand jury subpoenas and search warrants were not
available. Yet, while we are reluctant to claim that our investigation was exhaustive in
developing every fact in response to the 14 Senators’ request, we are confident that we
identified those facts that were relevant to gain a fundamental understanding of what
transpired. Our investigators interviewed 59 witnesses in Washington, DC; New York;
California; Maryland; and Texas. Those witnesses included present and former NASA
scientists and Public Affairs officials from NASA’s Goddard Institute for Space Studies;
present and former NASA scientists and Public Affairs officials from the Goddard Space
Flight Center; present and former officials, scientists, and Public Affairs officials from
the Jet Propulsion Laboratory and the California Institute of Technology; present and
former NASA Headquarters Office of Public Affairs officials; present and former NASA
senior management; former congressional staff members; and a former employee from
the Executive Office of the President’s Office of Science and Technology Policy. Our
inquiry also included reviewing over 10,000 pages of documents and congressional
testimony, as well as the forensic examination of six Agency computers used by NASA
employees.

Beyond the scope of this inquiry was an examination, in any manner, as to the relative
merits or validity of the scientific support underpinning various climate change, global
warming, or global change theories. 8



6
    The Inspector General Act of 1978, Pub. L. No. 95-452, 92 Stat. 1101 (codified as amended at 5 U.S.C.
    App. [2007]).
7
    We note that under the Constitution, “political” decisions occur every day in the Federal government;
    and properly so. Accordingly, our concern in this matter was whether such decisions were in fact
    appropriate, i.e., consistent with law and regulation. While “political” in the day-to-day jargon is
    sometimes used as a pejorative term, the word is more properly defined as “of, or relating to government,
    a government, or the conduct of government, . . . relating to or involving politics and esp. party
    politics ....” “Politics,” among many meanings, refers to “the art or science concerned with winning or
    holding control over a government; the art or science concerned with guiding or influencing government
    policy.” (Emphasis added.) Webster’s Ninth New Collegiate Dictionary (Merriam-Webster Inc.,
    Springfield, MA, 1988).
8
    As some of the alleged changes to proposed news releases change the meaning or impact of the scientific
    findings, one might believe it necessary for this office to closely examine the underlying science; in our
    view, any unilateral change in meaning imposed by NASA Office of Public Affairs personnel is


                                                       4
With limited exceptions, NASA officials were cooperative in conducting this
investigation. Examples of this cooperation included

    •   The NASA Chief of Staff issued sustained and unequivocal directives to the
        Agency to retain all documentation related to climate change and media relations.
        This also included his volunteering to serve as the Agency’s liaison for this
        investigation to ensure our access to witnesses and documents, which we believe
        he did in good faith.

    •   At our request, a NASA-wide e-mail was sent to all civil service and contractor
        employees requesting information on alleged suppression and censorship of
        science concerning climate change. This e-mail, which is attached as Appendix
        A, solicited all NASA civil service and contractor employees to provide the
        NASA Office of Inspector General with any personal accounts of NASA research
        pertaining to climate change that was wrongfully, unlawfully, or without good
        cause changed, suppressed, or censored.

We also solicited congressional staffs—both from the Senate and the House of
Representatives—urging them to have their sources on this issue come forward to our
investigators. We made the same request to members of the national media who have
written on the topic of climate change censorship. Finally, we requested interviews with
additional personnel from the Executive Office of the President’s Office of Science and
Technology. Although the Office of Science and Technology has not presented this
office with a decision on our requests, we deem those requests to have been denied due to
the elapse of time since the requests were made.

Our investigative approach, as contained in the remainder of this Investigative Summary,
was to identify the parties involved, the applicable statutory and regulatory standards, the
core and related allegations, and their supporting facts and to determine whether those
facts were in adherence with the statutory or regulatory standards or were otherwise
inconsistent with the economic and efficient administration of the affected Agency
programs. Finally, we note that prior to our work, the Agency had acknowledged
shortfalls relating to some of the allegations and had already taken corrective action,
which we also address. The principal parties to this matter, and their respective equities,
are described below.




  presumptively unreasonable because of many factors, to include the failure to follow their own
  regulations, the inherent scientific and technical knowledge base attributable to the contributing
  scientists, and the overall and appropriate view that the job of the scientists is to generate science and the
  job of the NASA Office of Public Affairs is to accurately convey that same science to the public.


                                                       5
II. Parties in Conflict: NASA’s Climate Science Community and the NASA
    Headquarters Office of Public Affairs

Our investigation revealed that the allegations related to scientific suppression revolved
primarily around the interactions between two NASA components: the Science Mission
Directorate (whose mission includes climate change science) and the NASA
Headquarters Office of Public Affairs. To put the specific allegations (discussed later in
this report) into context, we believe it is helpful to understand the organizations within
NASA that were at odds regarding research dissemination, including the context of their
respective missions, wide scope of responsibilities, and geographic dispersion. A NASA
organizational chart is attached at Appendix B.

      A. NASA’s Science Mission Directorate

The Science Mission Directorate is one of NASA’s four Mission Directorates (the others
being the Aeronautics Research Mission Directorate, the Exploration Systems Mission
Directorate, and the Space Operations Mission Directorate). According to the “Science
Plan for NASA’s Science Mission Directorate 2007-2016,” the Science Mission
Directorate engages the Nation’s science community, sponsors scientific research, and
develops and deploys satellites and probes in collaboration with NASA’s partners around
the world to answer fundamental questions requiring the view from and into space.
Funded with $5.2 billion in fiscal year (FY) 2006 9 to achieve its multiple missions, the
Mission Directorate has two key subordinate components: the Earth Science Division,
which observes the Earth’s climate and atmosphere, was funded at $1.325 billion in FY
2006, and the Astrophysics Division, which studies celestial bodies and their possible
similarities to Earth, was funded at $1.5 billion in FY 2006. The Science Mission
Directorate’s mission is dispersed to various locations, such as Goddard Space Flight
Center and Jet Propulsion Laboratory. Of interest, each location has its own “Public
Affairs Officer,” which will be discussed later in this report.

      B. NASA’s Goddard Space Flight Center

NASA’s assets and missions are decentralized throughout the United States at various
locations commonly referred to as “NASA Field Centers.” One such Field Center is
Goddard Space Flight Center, which is located in the suburbs of Washington, DC, and
serves as the principal location for NASA’s Earth science research. The mission of
Goddard Space Flight Center is to expand knowledge of the Earth and its environment,
the solar system, and the universe through observations from space. The mission of the
Earth Science Division located at Goddard is to improve life on Earth and to enable space
exploration through the use of space-based observations. With respect to Earth, the
Division’s mission includes observing, understanding, and modeling the “Earth system”
to discover how it is changing, to better predict change, and to understand the
consequences for life on Earth. The Division’s goals (listed below) are vast, and
understandably, their derivative scientific data are of significant public interest.


9
    FY 2006 numbers were used because the timeframe of the allegations ranged from 2004 to 2006.


                                                    6
   •   Advance the understanding of the Earth system through exploration from the
       vantage point of space.
   •   Improve predictions of the Earth system through measurements and models.
   •   Provide leadership in Earth system science and technology including the
       development of new instruments, measurement missions, and models.
   •   Establish partnerships to promote Earth science.
   •   Enhance the Nation’s scientific and technological literacy.

   C. NASA’s Goddard Institute for Space Studies

Central to the facts underlying this investigation are personnel from the Goddard Institute
for Space Studies, which is one of three component laboratories of the Earth Science
Division at Goddard Space Flight Center. The Institute, however, is not located at the
Goddard Space Flight Center. Instead, its employees work in the Morningside Heights-
Columbia University neighborhood of New York City, at the corner of West 112th Street
and Broadway, in Columbia University’s Armstrong Hall.

The current mission of the Goddard Institute for Space Studies is the broad study of
“Global Change,” which is an interdisciplinary initiative that addresses natural and
human-caused changes in the environment that occur on various time scales and affect
the habitability of the planet. The Goddard Institute for Space Studies’ programs are
roughly divided into scientific categories such as climate forcings, climate impacts,
model development, Earth observations, planetary atmospheres, paleoclimate radiation,
atmospheric chemistry, astrophysics, and other disciplines.

A key objective stated by the Goddard Institute for Space Studies is the prediction of
atmospheric and climate change in the 21st century. The Institute further states that its
research combines analysis of comprehensive global information derived mainly from
spacecraft observations with global models of atmospheric, land surface, and oceanic
processes. Further, the Goddard Institute for Space Studies claims that the study of past
climate change on Earth and of other planetary atmospheres provides useful information
in assessing the general understanding of the Earth’s atmosphere and its evolution.

The Goddard Institute for Space Studies is under the supervision of Dr. Hansen.
Dr. Hansen became the Director of the Goddard Institute for Space Studies in 1981 and,
as mentioned previously, is a key participant in the facts underlying this investigation. At
the Goddard Institute for Space Studies, Dr. Hansen directs approximately 160
individuals who are either employed directly by the Institute or are affiliated with the
Institute through universities and other organizations.

   D. Jet Propulsion Laboratory

Our investigation also discovered complaints about the NASA Headquarters Office of
Public Affairs from scientists and Public Affairs Officers working at NASA’s Jet
Propulsion Laboratory. The Jet Propulsion Laboratory, located in Pasadena, California,


                                             7
is a NASA Field Center staffed and managed for NASA by the California Institute of
Technology. As a Federally Funded Research and Development Center, 10 the Jet
Propulsion Laboratory has an annual budget of approximately $1.6 billion and its
contract with NASA is renegotiated every 5 years. Whereas most NASA Field Centers
are run by a core staff of Government employees with support from on-site contractors,
the Jet Propulsion Laboratory’s management and staff are employees of California
Institute of Technology. Another 10 percent of their workforce is onsite contractors who
work for private companies, similar to other NASA Field Centers. Finally, there is a
small group of onsite Government employees who act as NASA’s liaison to the Jet
Propulsion Laboratory.

The Jet Propulsion Laboratory claims to “lead[s] the world” in producing robotic
spacecraft that have explored all of the solar system’s known planets. Also, the Jet
Propulsion Laboratory asserts that the tools it develops for its spacecraft expeditions have
proven invaluable in providing insights and discoveries in studies of Earth, its
atmosphere, climate, oceans, geology, and the biosphere. Finally, the Jet Propulsion
Laboratory maintains that it continues to break new ground in the miniaturization and
efficiency of spacecraft components, while at the same time improving the sensitivity of
space sensors and promoting the broadening of their application for a myriad of
scientific, medical, industrial, and commercial uses on Earth. Similar to the other
organizations mentioned above, the Jet Propulsion Laboratory’s relevance to this
investigation involves attempts to get news releases issued through the NASA
Headquarters Office of Public Affairs, discussed below.

     E. NASA Headquarters Office of Public Affairs

At the center of most of the allegations in this investigation is the NASA Headquarters
Office of Public Affairs, which has broad, diverse, and significant areas of responsibility
within NASA. Located in Washington, DC, the NASA Headquarters Office of Public
Affairs is one of four functional components reporting directly to the NASA Office of
Strategic Communications. 11 The Office of Strategic Communications is one of nine
Mission Support Offices 12 that report directly to the Office of the Administrator.

The NASA Headquarters Office of Public Affairs’ mission, derived from the Space Act,
is to provide for the widest practicable and appropriate dissemination of information
concerning NASA activities and results. This office is under the direction of the
Assistant Administrator for Public Affairs and a Deputy Assistant Administrator.




10
   48 C.F.R. § 35.017 (2007).
11
   The components reporting to the Office of Strategic Communications are Communication Planning,
   Education, Legislative and Intergovernmental Affairs, and the Office of Public Affairs.
12
   NASA’s Mission Support Offices are the Offices of the Chief Financial Officer, Chief Information
   Officer, General Counsel, Integrated Enterprise Management Program, Innovative Partnership Program,
   External Relations, the Chief Health and Medical Officer, Institutions and Management, and Strategic
   Communications.


                                                   8
The Assistant Administrator for Public Affairs, a Non-Career Senior Executive Service
political appointee, directs internal and external communications for the Agency and
serves as a senior advisor to NASA’s leadership. The Assistant Administrator is also
responsible for the release of all public information and the concomitant decisions related
to the release of public information. The current Assistant Administrator for Public
Affairs is Mr. David R. Mould, who was appointed on June 20, 2005. Mr. Mould’s
predecessor, Mr. Glenn Mahone, joined NASA as a Senior Advisor and Press Secretary
in April 2000 and was the Assistant Administrator for Public Affairs from January 31,
2002, to April 15, 2005. 13

The Deputy Assistant Administrator for Public Affairs is also part of the senior
leadership team responsible for advising the Administrator concerning all aspects of
public affairs, to include developing, implementing, planning, and controlling all
elements of Agency-wide public affairs activities. The Deputy Assistant Administrator
also chairs the editorial board of the NASA Web Portal and is the Internet site’s
publisher. The Deputy Assistant Administrator also responds to media questions and
helps prepare the Administrator and Agency leaders for media interviews and
congressional testimony. During the time of censorship allegations later described in this
Investigative Summary, Mr. Dean Acosta, also a Non-Career Senior Executive Service
appointee, was the Deputy Assistant Administrator. Mr. Acosta turned out to be one of
the central figures pertaining to censorship and media access allegations. The Deputy
Assistant Administrator for Public Affairs position is now filled by a career civil service
employee. This was a recent change instituted by NASA to facilitate communications
within the NASA Headquarters Office of Public Affairs. The current Deputy Assistant
Administrator for Public Affairs, Mr. Robert N. Jacobs, was assigned his duties in May
2007.

Some of the key services provided by the Assistant Administrator for Public Affairs (and
presumably the Deputy) include

       •   providing advisory services and consultation to the Administrator on issues
           concerning communications and relations with the media and the general public;
       •   contributing policy guidance, advice, and consultation to Headquarters program
           offices, functional offices, and NASA Field Centers on public affairs issues;
       •   directing Agency-wide programs and activities to coordinate and direct resources
           to the news media and American public; and
       •   providing open and credible communications channels to the news media and the
           general public.

Events that implement these services are wide-ranging. The NASA Headquarters Office
of Public Affairs organizes news conferences and other media briefings, public
ceremonies and special exhibits, and oversees the activities of NASA’s speaker’s bureau,

13
     Mr. Mahone was also a Non-Career Senior Executive Service appointee.



                                                    9
Public Inquiries Management Office, Freedom of Information Office, fine arts program,
public tours, and visitor centers. Other significant responsibilities include the
development of integrated, Center-coordinated public affairs plans for the program
offices; some of these plans are mission or event specific, while others are thematic or
broad in scope.

Each of the 10 NASA Field Centers has its own Office of Public Affairs that ultimately
reports to leadership within their respective Field Centers but also receive policy
guidance from NASA Headquarters Office of Public Affairs. According to NASA
policy, 14 all public information, including news releases, intended for Nation-wide
release must be reviewed and cleared by the Headquarters Office of Public Affairs.
NASA Field Centers, however, may release public information that is institutional in
nature, of local interest, or deemed by the Headquarters Office of Public Affairs not to
need Headquarters release review and clearance. All NASA Field Centers are required to
provide proper notification to the Headquarters Office of Public Affairs prior to release of
information.

The actions and interactions of all of the groups described above were the source of the
allegations and the focus of the investigation conducted by this office. In sum, the
allegations largely came from Science Mission Directorate scientists and career Public
Affairs Officers. These allegations concerned the actions taken by the political
appointees in charge of the NASA Headquarters Office of Public Affairs. Those
officials, it was alleged, inserted themselves into the scientific research dissemination
process by taking direct and indirect actions with the apparent goal of reducing the
number and impact of climate change news releases through delays, edits, and conversion
to other media as well as interfering with the media’s access to the scientists.

Before addressing these allegations, we believe that is it is helpful to review the legal and
regulatory standards under which the NASA Headquarters Office of Public Affairs was
operating at the time, with regard to the dissemination of scientific information.


III. Statutory Standards Regarding Scientific Suppression and Media Access

We believe that two statutory standards are germane to the allegations of scientific
censorship (to include media access) discussed in this report. The first is the Space Act;
the second, the Inspector General Act of 1978. 15

In using these Acts as our evaluative standards by which we sought and evaluated
evidence, we also recognized that there is a plethora of other legal authorities—to include


14
   NASA Public Affairs policies, both at the time of the censorship allegations and currently, will be
   discussed later in this report.
15
   The Inspector General Act’s investigative standards will not be discussed in depth. In pertinent part,
   however, the Act’s investigative jurisdiction is very broad and permits an Inspector General to examine
   whether an agency’s programs and actions promoted economy, efficiency, and effectiveness in
   Government (5 U.S.C. App. § 4 [2007]).


                                                    10
Constitutional issues involving the First Amendment and Executive Power 16 —that were
implicated but beyond the scope of this investigation. Further, we also noted the helpful,
yet unsettled definitions of “scientific suppression” by leading scholarly commentators 17
as a backdrop for our fact-finding and analysis. But ultimately, we relied on the Space
Act and NASA’s implementing regulations as the foundation of our analysis.

        A. The Space Act and Climate Change Research at NASA

One of the fundamental questions regarding allegations of scientific suppression in this
case was whether NASA, at the outset, had a statutory or regulatory requirement to
disseminate its scientific information. If so, were NASA’s Public Affairs Officers then
required to disseminate all scientific information or did they have the discretion to pick
and choose? For example, could a Public Affairs official lawfully reject proposed news
releases from climate change scientists, or “tone down” the message of the release, or
assign the information from the release to media forums with less public exposure?
Further, did the intent behind their decisions matter? For example, would the answer
change if a proposed climate change science news release was edited or delayed for


16
   For example, what is the Constitutional role of an Agency or Department’s Office of Public Affairs
   pertaining to the dissemination of organizational news that portrays the Administration, Agency, or
   Department in an unfavorable manner?
17
   The United States Code does not address “scientific suppression” per se nor is there compelling case law
   on the subject. We are reluctant, therefore, to characterize the allegations, if substantiated, as “scientific
   suppression” as a “matter of law.” And while there is no universally accepted legal definition of
   scientific suppression, there are, however, individuals, organizations, and academic journals that have
   tried to define the term – which was helpful to our analysis. Some definitions are listed below.
     The International Society of Environmental Epidemiologists defines the related term, “research
     suppression,” as, “[O]bstructing the study or release of scientific findings for reasons other than a
     concern for scientific validity or objectivity.” Robert R. Kuehn, “Suppression of Environmental
     Science,” Am. J. L. and Med. 333, 335 (June 22, 2004). Arguably, this definition will fit some of the
     allegations later described between the NASA Headquarters Office of Public Affairs and the NASA
     climate science community. Of course, much of the debate under this definition would turn on whether
     NASA’s climate scientists were presenting non-science “policy matters” or “scientific findings.”
     Brian Martin, Professor of Social Sciences in the School of Social Sciences, Media and Communication
     at Australia’s University of Wollongon, defines scientific suppression as “instances where someone or
     some organization threatens a scientist’s employment position, financial support, or ability to publish or
     communicate research for reasons other than the quality of the work or the qualifications or credentials of
     the scientist.” He further states, “[S]uppression involves efforts to withdraw or withhold research
     money; transfer scientists to jobs where further unwelcome research is difficult or impossible; deny
     employment appointments, promotions, or tenure; dismiss scientists from their research positions; and
     block publications or presentations on the methods and results of research.” This definition would apply
     to concerns expressed by Dr. Hansen, discussed later in this report, concerning budget cuts for Earth
     Sciences.
     Professor Robert R. Kuehn of the University of Alabama, with the assistance of the above definitions,
     wrote an article for the American Journal of Law and Medicine titled “Suppression of Environmental
     Science.” In his article, Professor Kuehn uses the above definitions to come to the conclusion of what he
     defines as suppression of environmental science. He concludes that suppression of environmental
     science is when someone or some organization “seeks to prevent the creation of certain unwelcome data
     or theories, or, alternatively, to deter or block the dissemination of unwelcome data or theories that
     already exist, through pressure or restraints on environmental scientists.”


                                                       11
purported improvements in readability or for safety purposes as opposed to changes made
because the original was inconsistent with Agency or Administration priorities? Further,
can or should political appointees in charge of NASA’s Public Affairs function use news
releases to promote, for example, an Administration’s “Vision for Space Exploration” but
not scientific research that might direct policy attention away from that Vision? Many of
these questions have Constitutional implications and would be interesting and appropriate
for an academic law review analysis. For the purpose of this investigation, however, we
believe that the Space Act, as described below, is the most appropriate standard to assess
the facts and circumstances of this case.

As background, the Space Act created NASA as a peaceful organization dedicated to
research and scientific discovery to benefit all of humankind. Through the Act, Congress
directed NASA to contribute materially to the expansion of human knowledge of the
Earth and phenomena in the atmosphere and in space. Parts of the Act apply directly to
the requirement for and dissemination of climate change research.

For example, Congress directed NASA, in section 203(a)(2) of the Space Act, to “arrange
for participation by the scientific community in planning scientific measurements and
observations to be made through the use of aeronautical and space vehicles, and to
conduct or arrange for the conduct of such measurements and observations.” In section
401(a), NASA is directed to “develop and carry out a comprehensive program of
research, technology, and monitoring of the phenomena of the upper atmosphere so as to
provide for an understanding of and to maintain the chemical and physical integrity of the
Earth’s upper atmosphere.” To help carry out the above requirements, section 403(a)
directs NASA to work along with other Federal agencies to initiate and carry out a
program of research, technology, monitoring, and other appropriate activities that will
enhance the understanding of the physics and chemistry of the Earth’s upper atmosphere.
Section 403(b)(3) also requires NASA “to make all results of the program authorized by
this title available to the appropriate regulatory agencies and provide for the widest
practicable dissemination of such results.”

Of particular relevance to our investigation is section 203(a)(3) of the Space Act, which
directs NASA “to provide for the widest practicable and appropriate dissemination of
information concerning its activities and the results thereof.” (Emphasis added.) For our
analysis, the Act’s operative language is the requirement that NASA disseminate its
information, subject to qualifying language that its dissemination be the widest
“practicable and appropriate.”

Our Investigative Summary reveals factual differences (and inferred legal interpretations)
between those on both sides of the issue. For example, in presenting the allegations
discussed in this report in a light most favorable to NASA’s climate change science
community, we believe that many of these scientists (and the majority of career Public
Affairs Officers interviewed) would argue that the actions of NASA Headquarters Office
of Public Affairs—in delaying, unduly editing, canceling, or converting to lesser media
their news releases related to climate change—were not in keeping with the mandates of
the Space Act. In particular, that the Space Act required the NASA Headquarters Office



                                           12
of Public Affairs to disseminate this information to the widest extent possible, but they
did not.

Conversely, the most likely argument in response to these allegations from officials in
NASA Headquarters Office of Public Affairs would be that their actions were proper and
in keeping with the Space Act because their duties (and common sense) required them to
exercise discretion as to “appropriate and practicable” dissemination. In making the
dissemination decisions that they did, they took into consideration what was
“appropriate” for NASA in light of a multitude of factors—to include operational
activities that also called for the public’s attention, the priorities of NASA as an agency,
and the priorities of an elected Administration’s stated “Vision for Space Exploration.”

Another Space Act consideration is that, for the most part, the contested information on
climate change science was otherwise disseminated by NASA in forums separate and
apart from the public affairs news release process, such as scientific journal articles,
conference presentations, interviews of personnel, Web postings, media advisories, news
features, NASA television and other television programming, and other more targeted
media. The resulting argument, therefore, was whether those dispersals, in and of
themselves, satisfied the Space Act’s dissemination requirements or whether those
actions still fell short because, as the climate scientists’ claim, limiting the information to
these “specialized” media (instead of more widely viewed “news releases”) was
depriving the American people of knowing about the important information for which
they paid through their tax dollars.

Despite the possible arguments or interpretations, however, we cannot envision a
circumstance in which the Space Act’s language or intent would permit, as “appropriate,”
circumstances where Agency Public Affairs officials purposely deny, delay, tone down,
or subordinate to lesser media the presentation of federally funded scientific research to
the public, and in which the public clearly has a substantial interest, because they
believed it to be inconsistent with Administration policies or priorities, which is what is
reasonably reflected by the evidence.

      B. NASA Regulations that Implement the Space Act’s Information
         Dissemination Requirement 18 for Scientific and Technical Information 19


NASA disseminates scientific and technical information (STI) that is not intended to be
released to the media through a process defined by NASA Procedural Requirements
(NPR) 1080.1, “NASA Science Management,” February 2, 2005, and NPR 2200.2B,
“Requirements for Documentation, Approval, and Dissemination of NASA Scientific and


18
   Under § 203(c)(1) of the Space Act, NASA is authorized to issue “rules and regulations governing the
   manner of its operation and the exercise of the powers vested in it by law.”
19
   Scientific and technical information (STI) is defined as the results of basic and applied scientific,
   technical, and related engineering research and development. STI also includes management, industrial,
   and economic information relevant to the research. NPR 2200.2B, “Requirements for Documentation,
   Approval, and Dissemination of NASA Scientific and Technical Information,” § 1.2.1, March 25, 2005.


                                                   13
Technical Information,” March 25, 2005. In pertinent part, these NPRs regulate the
publication and dissemination of scientific and technical reports, Internet postings
designed for technical or scientific interchange, and technical information presented at
professional meetings or in professional journals. In fact, section 4.2 of NPR 1080.1
encourages NASA and NASA-sponsored authors to publish in widely accessible peer-
reviewed journals and to make oral presentations at professional societies of scientific
information. Finally, section 4.2.2 of NPR 1080.1 also encourages collaboration with the
NASA Office of Public Affairs in preparing news releases and related matters.

Unlike the public affairs process described below, the approval process to disseminate
NASA STI external to NASA rests with the manager of the program through the
“Document Availability Authorization” review process described in NPR 2200.2B. This
process requires Field Center program or project managers to ensure that STI within their
purview receives appropriate management and technical reviews prior to the STI being
published, disseminated, or otherwise presented external to NASA. 20 Managers who
approve STI are also directed to coordinate their efforts with the Center’s Document
Availability Authorization representative, contracting officers, contracting officer’s
technical representatives, and STI Manager, as appropriate. Of note, the NASA
Headquarters Office of Public Affairs has no decision-making authority regarding the
dissemination of STI that does not have media or public interest attention. However, STI
could rise to the level of “public information” described below, if it is to be released to
the media or if it is anticipated to draw significant media or public attention.

     C. Public News Matters

At the apex of the censorship allegations, NASA’s public news release policy was found
in a regulation then in effect titled “Release of Information to News and Information
Media.” 21

That regulation embraced the Space Act’s requirement that NASA was to “provide for
the widest practicable and appropriate dissemination of information concerning its
activities and the results thereof” 22 and provided for the Associate (now Assistant)
Administrator for Public Affairs to have the overall responsibility for the development
and administration of an integrated Agency-wide communications program and to be the
“determining official” as to whether specific information should be released. 23 In sum,
the policy regarding news releases focused staff primacy on and through the Associate
(Assistant) Administrator for Public Affairs. Of particular note, the policy required “all



20
   NASA documents the STI approval process using NASA Form 1676 “Science and Technology
   Information Document Availability Authorization” (DAA) or a Field Center specific version of that
   form.
21
   The original regulation was promulgated on June 8, 1976, and then revised on December 3, 1987, and
   again on December 26, 1991. The 1991 revision only affected § 1213.102 through § 1213.105, the other
   sections remained unchanged from the 1987 revision. The newly proposed policy was published on the
   NASA Web site on March 30, 2006, and published in the Federal Register on August 24, 2006.
22
   14 C.F.R. § 1213.101 (1987).
23
   14 C.F.R. § 1213.102 (1991).


                                                  14
organizational elements of NASA involved in preparing and issuing NASA news releases
[to be] responsible for proper coordination and obtaining concurrences and clearances
prior to issuance of the news release.” 24 The NASA Headquarters Office of Public
Affairs also had a Standard Operating Procedure, which will be discussed later in this
report.

The regulation also addresses the topic of interviews, simply stating that “requests for
interviews with NASA officials [would] be made through the appropriate Public Affairs
Office.” Journalists, however, would have “direct” access to those NASA officials they
sought to interview. The regulation also requires NASA personnel to respond “promptly
to requests from media representatives for information or interviews.” 25

While neither law nor regulations confer NASA scientists with individual rights to a
public promulgation of their work through the forum of a news release, we interpret the
Space Act and NASA’s implementing regulations at that time as reasonably requiring
NASA’s Public Affairs officials to widely disseminate all research information of public
interest subject to the Act’s limitations such as when dissemination is “practicable and
appropriate.” We do not believe, however, that the Agency’s statutory mandate or
regulatory commitments, with specific reference to its public affairs functions, allow for
the intentional distortion of information or science in press releases the Agency—in its
exercise of discretion—has elected to issue. Likewise, purposefully withholding or
delaying meritorious releases to ostensibly meet political objectives would also appear to
stretch the mandate to provide “the widest practicable and appropriate dissemination of
information concerning its activities and results thereof.”


IV. Allegations and Instances of Censorship and Suppression

As mentioned above, NASA has two avenues for transmitting scientific information
outside of the Agency. The first is targeted to the scientific community through
information made available to them through peer-reviewed journals, scientific
periodicals, science and technical reports, and findings presented at symposia, practica,
and conferences. In the course of our investigation, we neither received nor discovered
any complaints or concerns regarding the operating procedures or implementation of
those procedures used for NASA’s release of scientific and technical reports. Further, the
NASA Office of Inspector General’s Office of Audits corroborated our observations in a
recent audit, noted earlier, which found no evidence that the STI review process was used
to inappropriately suppress the release of scientific data. Again, of the 287 authors
surveyed at the four Field Centers reviewed, none indicated that they had personally


24
   14 C.F.R. § 1213.104 (1991). The section goes on to discuss that “all field installations [were to]
   exchange information with the appropriate Headquarters Public Affairs Officers concerning news events
   and releases. Immediate notification was to be made to Headquarters and any impacted installation of
   events or situations that [would] make news, particularly of a negative nature.” Id. Directors of Field
   Installations, through their Public Affairs Officers, were also permitted to release information for which
   those field installations were the primary or sole sources. 14 C.F.R. § 1213.103 (1991).
25
   14 C.F.R. § 1213.105 (1991).


                                                     15
experienced or knew of anyone else who had experienced actual or perceived suppression
of their research. Further, a published review conducted by the Government
Accountability Office estimated that 91 percent of NASA researchers believe that the
Agency supports dissemination of research results through publications. 26

NASA’s second avenue for transmitting scientific information is through its public affairs
function described above and, as such, is intended to reach the public at large. NASA
Headquarters and Field Center Offices of Public Affairs have staff cognizance for this
avenue, which typically includes news releases, stories posted on the Internet, and media
advisories. As mentioned, this is the area where we received and otherwise discovered
complaints regarding the suppression of climate change science. 27

     A. NASA’s News Release and Media Access Process

Given that the allegations focused more on NASA’s actions relating to public
dissemination of research through media processes, we focused part of our review on
NASA’s implementing regulations and procedures pertaining to the NASA Headquarters
Office of Public Affairs and, in particular, how that office applied its Standard Operating
Procedures in effect from 2004 through early 2006.

In addition, we interviewed Public Affairs Officers and their managers as well as
scientists at NASA Headquarters and NASA Field Centers. The focus of these interviews
was to determine the standard practices used to disseminate research to the public and
whether these practices were modified if the material, such as a proposed news release,
related to politically sensitive subjects such as climate change research.

In general, we found that during the 2004 through early 2006 timeframe, NASA’s
scientific research promulgation rules for media dissemination were a combination of
Agency-wide dissemination policies and specific policies established by NASA Field
Centers and Mission Directorates. These policies were memorialized within the
previously described NASA Procedural Requirements with unique requirements posted
to Agency Internet sites or disseminated by the NASA Headquarters Office of Public
Affairs in writing through e-mail correspondence or through ad hoc verbal adjustments
and directions at meetings or teleconferences. Further, we found that NASA’s Public
Affairs Officers and scientists at the Field Centers were aware of and generally abided by
the specific Agency, Field Center, and Mission Directorate policies for the dissemination
of research.




26
   “Federal Research: Policies Guiding the Dissemination of Scientific Research from Selected Agencies
   Should be Clarified and Better Communicated” (GAO-07-653, May 2007).
27
   An e-mail solicited all NASA civil service and contractor employees to provide our Office with any
   personal accounts of NASA research pertaining to climate change that was wrongfully, unlawfully, or
   without good cause changed, suppressed, or censored. (See page 5 for the discussion of the e-mail.)
   Interestingly, the solicitation yielded only 11 replies. Of those, none contained any information that was
   relevant to this investigation.


                                                     16
The key directive available for use by the NASA Headquarters Office of Public Affairs
during the timeframe in question was a written “Office Work Instruction” titled “Perform
News Gathering, Encapsulation and Distribution,” that was effective since December 11,
2001. This Standard Operating Procedure provided Headquarters Public Affairs Officers
with a rudimentary flowchart reflecting the review process of all textual material received
to the point of public dissemination. Again, we found that most career Public Affairs
Officers with a long tenure at NASA were generally aware of the Standard Operating
Procedure but they acknowledged that it was rarely used as a reference in day-to-day
public affairs operations as most of the directions were given verbally on an ad hoc basis.
Until memorialized into a more detailed Standard Operating Procedure in October
2006, 28 the procedures were generally as follows: 29

     •   A media product intended for public dissemination typically began with a
         scientist submitting a draft to the NASA Field Center Public Affairs Office.
     •   The Field Center Public Affairs Office would then work with the author to ensure
         the submission was clear and accurate.
     •   Concurrence was obtained from appropriate Field Center officials and scientists.
     •   The draft media product was then transmitted to the NASA Headquarters Office
         of Public Affairs for review by the appropriate Mission Directorate/Program
         Public Affairs Officer located within the NASA Headquarters Office of Public
         Affairs.
     •   That person then coordinated the proposed media product with the responsible
         NASA Headquarters Mission Directorate point of contact to re-verify the
         accuracy of the scientific and technical information.
     •   Conflicts, if any, were typically resolved by the Headquarters Mission Directorate
         point of contact through coordination with the Field Center Public Affairs Office
         and the original author.
     •   Once all parties concurred on the content of the media product, it was then
         forwarded to the NASA Headquarters Press Desk to ensure clarity and
         compliance with The Associated Press Stylebook.

The goal was final concurrence from all parties before the product was released to the
media and the public.

We found that the above-described process did not always work that way. Public Affairs
Officers and scientists employed in the fields of Earth science and astrophysics told our
investigators that the NASA Headquarters Office of Public Affairs did not, on a
consistent basis, apply the same Standard Operating Procedure for news releases, media


28
   In October 2006, NASA issued a detailed written Standard Operating Procedure, concerning the approval
   process for news releases entitled, “Operating Procedures for Release of NASA Public Information.”
29
   These procedures appear to implement and generally follow the policy requirements set forth in
   14 C.F.R. § 1213 (1991).


                                                  17
advisories, news features, Internet postings, and media interviews—especially when it
came to information that might be politically sensitive, such as climate change. Further,
many of them—to include career Public Affairs Officers—characterized the news release
approval process as “arbitrary” and questioned whether the Headquarters Office of Public
Affairs was choosing to ignore its own Standard Operating Procedure. Some NASA
scientists said that they even questioned the existence of an Office of Public Affairs
Standard Operating Procedure, based on their ignored requests (to Public Affairs) for
documentation of their internal policies.

In our October 22, 2007, interview with Mr. Mould, the Assistant Administrator for
Public Affairs during part of our investigation, Mr. Mould stated that NASA’s media
policies at the time were a “jumble of mish-mash,” adding that he never read them. 30

According to present and former career Public Affairs Officers at NASA Headquarters
and Field Centers that we interviewed, 31 the NASA Headquarters Office of Public Affairs
processed all media products that discussed “climate change” (or a variant thereof) in a
unique manner during the pre-election period of the fall of 2004 through the spring of
2006. Describing the review process for climate change media products as extremely
onerous, stressful, and heavy handed, it was their collective belief that there was an “air
of political interference” and a desire by the political appointees in the NASA
Headquarters Office of Public Affairs to support the Administration by reducing the
amount or toning down the impact of climate change research disseminated to the public.
Career employees described to us a Headquarters Office of Public Affairs environment
where “looking good” was the preeminent motivator of their political appointee superiors
and coworkers (rather than following a process with regard to their statutorily required
research dissemination). 32 Consequently, the majority of complaints by career civil
service Public Affairs Officers and scientists were directed at the actions of Messrs.
Mould, Mahone, Acosta, and George Deutsch, who were all political appointees.

Both Mr. Acosta and Mr. Mould denied the allegation that the actions of the
Headquarters Office of Public Affairs with regard to climate change research news
releases or media access were attempts to suppress or censor politically sensitive

30
     In a supplemental statement submitted by Mr. Mould on April, 29, 2008, he stated that his comments to
     NASA OIG investigators regarding NASA’s written media policies (that he presumably inherited when
     he took charge) was an attempt “to explain that these complex, confusing, and voluminous policies were
     extremely difficult to comprehend and, therefore, not very useful” and that those policies represented a
     “vast expanse of confusing material that had accumulated through the years.”
 31
     We interviewed 15 current/former Public Affairs Officers at the Goddard Institute for Space Studies,
     NASA Headquarters Office of Public Affairs, Goddard Space Flight Center, and Jet Propulsion
     Laboratory who worked climate change news issues. All 15 agreed that climate change news was
     handled in a unique manner. There may have been other personnel that worked on climate change news
     matters, but their identities were not disclosed during the investigation.
32
    In contrast to NASA’s regulations requiring the Office of Public Affairs to disseminate information of its
    “activities and the results thereof,” we received anecdotal observations from career Public Affairs
    Officers as to the prevailing atmosphere in place at that time. One NASA career civil service employee
    stated that one political appointee allegedly told them, “It’s our job to make the President look good.”
    Another employee opined to our investigators that Mr. Mahone was “obsessed” with making the
    Administrator “look good” in the eyes of the President.


                                                      18
information. Instead, they claim that edits and delays of news releases were necessary to
create products that were understandable to the general public. Mr. Mould also stated
that the process for editing news releases at that time was “a mess,” as there were “way
too many cooks [involved] in the process.” He advised that the scientists did not write
very well and they looked upon the news release as a “mini science paper.” The result
was a news release that was too technical in nature; that would not be understood by the
general public. In trying to correct this problem, Mr. Mould conceded that things may
have “unintentionally gotten confused or lost in translation,” but he stressed that the
problems did not arise out of any Headquarters Office of Public Affairs’ political agenda.

Almost all the career NASA Headquarters Public Affairs Officers told us that during
2004 through early 2006, it was “generally understood” that all “climate change” media
text products were to be personally hand-carried to Mr. Acosta for review. Additionally,
Messrs. Mahone and Acosta told at least two Headquarters Public Affairs Officers that
the “White House” would get advance notification of any news release concerning
climate change. Messrs. Mahone and Acosta acknowledged that prior to issuing news
releases concerning climate change, they would provide an advance copy to the White
House Press Office for informational purposes only. Both stated that this was not done in
an effort to seek White House approval, but was a standard procedure for any news
release deemed to have significant potential national media interest, such as climate
change.

While the stated perception of some Field Center Public Affairs Officers and climate
change researchers was that the White House was making decisions concerning what
information would be released, our investigation found no direct evidence that
non-NASA officials serving within the Administration were editing/approving the release
of climate change media products. We did, however, find evidence that the NASA
Office of Public Affairs routinely notified Administration officials of newsworthy events
and, in one case, appeared to be coordinating with Administration officials with respect
to the timing of a climate-related press conference and news release.

In examining NASA’s distribution of news releases surrounding the 2004 Presidential
election, our investigation found that at least one climate change news release, “Aura
Sheds New Light on Pollution,” was intentionally delayed by NASA Headquarters Office
of Public Affairs until after the election. We could not, however, substantiate other
allegations of over “month long delays” in getting releases approved or released during
the pre-election period. Supporting documentation, especially regarding the dates Field
Center Public Affairs Officers submitted proposed releases to Headquarters, or witnesses
who had specificity as to dates, were not available.

One witness, a former Headquarters Public Affairs Officer, informed our investigators
that in October 2004, Mr. Acosta told him/her about his (Mr. Acosta’s) concern that there
were “too many” climate-related news releases being submitted for approval and that the
Earth Science Mission Directorate Public Affairs Office needed to do a better job of
“preventing” the development of climate-related and especially climate change news
releases. Again, we found no direct evidence of affirmative actions by NASA personnel
that were in furtherance of Mr. Acosta’s remarks. We did, however, discover records that


                                            19
were gathered in support of NASA’s management review of alleged scientific
suppression in 2006, 33 that reflected a subsequent reduction in climate-related news
releases, from 48 in 2004 to 12 in 2005 (Appendix C is a list of those releases).

Apart from the “Aura” release mentioned above, no determinative evidence was gathered
that directly linked the timing and content of the post-election 2004 and 2005 climate-
related releases to pre-election manipulation by NASA Headquarters Public Affairs
Officials.

We also received a series of general allegations that NASA Headquarters Office of Public
Affairs delayed or converted draft climate-related news releases to Internet postings and
media advisories, thus garnering less public exposure. According to the scientists and
career Public Affairs Officers we interviewed, media outlets such as newspapers,
magazines, and non-print media looked primarily to news releases, and not Internet
postings or media advisories, for stories, as it was understood by these outlets that
significant NASA news would be disseminated in the form of news releases. The
scientists we interviewed claimed these delays and conversions were “politically
motivated” as they lessened the impact of the story because the lack of timeliness and the
forums chosen for dissemination resulted in the media outlets being less likely to pick up
the stories.

Mr. Acosta denies all this, stating that any delays were necessary due to the extensive
editing required to create a product that the general public could understand. The NASA
Field Center Public Affairs Officers and scientists that we interviewed deny the assertion
that the releases needed extensive editing. We requested all available documentation
concerning the review and editing process as it related to climate change research news
releases, but we discovered that the lack of documentation made it impossible to
substantiate the actual date of a news release’s submission or the level of editing
performed.

Interviews of Public Affairs Officers and scientists disclosed a common belief that there
were no clear written policies regarding media contacts or news releases. They stated
that policy guidance issued by Headquarters Office of Public Affairs’ staff was verbal
and erratic and often led to inconsistent policy administration by the NASA Field
Centers. All of the NASA climate change scientists and career civil service Public
Affairs Officers who were interviewed agreed that some form of political vetting or
censorship or suppression existed within the climate change news release process. Senior
Public Affairs officials cite non-political editing procedures and processes that were
occasionally misapplied. Although not privy to all the facts in this report, NASA’s Chief
of Staff opined that the Headquarters Office of Public Affairs’ editing process at the time


33
     We note that the 2004 and 2005 climate-related news releases were mixed among hundreds of releases
     under the staff cognizance of the NASA Headquarters Office of Public Affairs. The NASA Press Release
     Archives disclosed the NASA Office of Public Affairs produced 734 news releases for 2004 and 681 for
     2005. The 48 climate-related releases in 2004 and 12 climate-related releases in 2005 were assembled by
     a Headquarters Public Affairs Officer in response to an internal NASA examination on the subject of
     scientific suppression, conducted by Dr. Edward Weiler, Director, Goddard Space Flight Center.


                                                      20
in question was cumbersome and hampered by poor communications between that office
and NASA Field Center Offices of Public Affairs. The Chief of Staff also opined that,
from his vantage point, the tribulations with the editing process were attributable to the
shortcomings and misunderstandings borne of the bureaucratic process—and not so much
to any political bent. One career Public Affairs Officer told us that climate change
“politics” did not drive all of the edits by NASA Headquarters Office of Public Affairs,
stating that the submitting scientists sometimes used hyperbolic verbiage to presumably
enhance their programs or attract public attention.

We found that ineffective policies 34 and lack of an effective Standard Operating
Procedure allowed for evidence in support of both “sides” of the arguments behind the
news release editing rationales. The evidence discussed later in this report, however,
points to political posturing influencing at least some of the media decisions made by the
NASA Headquarters Office of Public Affairs. We also note, however, that we received
reports that not all Headquarters’ changes to climate change news releases were
politically motivated; we found that Headquarters’ edits were occasionally made by
Headquarters-based Science Mission Directorate scientists—and not Public Affairs
officials. For example, the scientist who initially authored the news release was not
always aware of who made edits, which contributed to fears that “politics” was
supplanting science, even when it was a fellow scientist making the changes.

     B. Categories of Alleged Interference with Politically Sensitive News Releases

Based on the information we obtained concerning the alleged “arduous” nature of
releasing climate change media products to the public during 2004–2006, we also
examined how the process actually affected the end product. To accomplish this, we
conducted interviews with scientists and Office of Public Affairs specialists and
managers, reviewed numerous draft and issued news releases and congressional
testimony, and examined e-mail traffic to attempt to verify the verbal accusations.

In most instances, we limited the scope of our interviews and reviews to the subject
matter of climate change research. As a result, the variety of real or perceived problems
with the NASA news release process uncovered by our investigation applies primarily to
climate change media products. 35

We found that the allegations against NASA Public Affairs officials did not lend
themselves to a narrow description. Instead, the allegations described a variety of
behaviors, ranging from claims of a stark denial of a climate change related news release
to actions that caused self-censorship. Aside from a theme suggesting that the


34
   This included record keeping. For example, we were unable to address many of the allegations because
   of an insufficient audit trail.
35
   The only non-climate change complaints we received or uncovered were from scientists in the field of
   astrophysics. Their complaints largely centered on changes made to news releases that mischaracterized
   or misinterpreted the research. Nevertheless, we included them in this report as they illustrate a lack of
   management controls and the adverse results that occur when changes are made to news releases without
   the benefit of consultation with scientists who conducted the actual research.


                                                     21
Headquarters Office of Public Affairs didn’t have a sufficient news release policy—or
wasn’t following the one they had—our investigation revealed that allegations of
improper political interference or flawed media practices tended to fall within the
following actions taken or caused by the NASA Headquarters Office of Public Affairs.
Case examples of each are described in the next section.

       •   Denial. Allegations that the NASA Headquarters Office of Public Affairs
           improperly prevented the dissemination of NASA media products.

       •   Dissembling/Obscurantism. Allegations that NASA Headquarters Office of
           Public Affairs improperly altered the author’s message to mask the purported
           controversial implications of the scientific findings. Included in this
           allegation was the simplifying of headline titles, the adding of uncertainty to
           the findings, the changing of the emphasis of the story, the eliminating of
           “hot-button” words or phases such as “global warming,” and the changing of
           scientists’ “quoted” statements.

       •   Use of Timing to Lessen the Scientific Message. Allegations that the
           passage of time was used as a tool to improperly minimize the scientific
           message. According to the majority of affected Public Affairs Officers and
           scientists, the Headquarters Office of Public Affairs took an inordinate
           amount of time in reviewing some climate change draft news releases so that
           (in some instances) the information was released at a time when it would
           generate less attention from the national media. For example, they claim that
           the Headquarters Office of Public Affairs would delay the issuance of a
           scientific news release until there was an overshadowing major NASA news
           event, such as a shuttle launch. Also, the complaining scientists (and their
           local Public Affairs Officers) stridently believed that Headquarters delayed
           their releases until long after a significant topical news event had taken place
           (such as an international climate change conference). So, instead of
           capitalizing on the public interest generated by such events, they believed that
           the Headquarters Office of Public Affairs withheld the approval of such
           topically related news releases until the events (such as these conferences)
           were long over and public interest had waned.

       •   News Forum Minimization. Allegations that media products were
           improperly “downgraded” from news releases to media advisories or Internet
           postings, thus negating the interest of media outlets to “pick up” and
           disseminate the information. Based on interviews, all NASA career news
           professionals were in agreement that the optimum coverage for a media
           product was a “news release” and that the common practice at NASA was to
           use a news release to disseminate information that NASA considered worthy
           of national media attention. Consequently, they believed that changing a
           news release to a different (lesser) medium would presumably result in less
           media attention.




                                            22
•   Poor Coordination. Allegations that the post-edit final media product
    improperly included factual, conceptual, and grammatical errors. Submitting
    scientists claimed they were not always given the opportunity to review or
    concur with the changes made by editors within NASA Headquarters, either
    by the Office of Public Affairs or the Science Mission Directorate. They said
    that in some instances, they were not made aware of changes to the final
    released media product—changes they then had to defend to the public and to
    their scientist peers even though they disagreed with the changes or the
    changes were factually wrong. Conversely, NASA Headquarters Public
    Affairs Officers and managers stated that significant editing was in fact often
    necessary because the media products submitted by the NASA Field Center
    Offices of Public Affairs and scientists were so technical in content that they
    were indecipherable in a traditional public affairs context. In particular, they
    asserted to us that at least some of the proposed releases were written as if
    they were being submitted for a scientific journal and not for consumption by
    the general public.

•   Mixed Messaging. Allegations that the President’s “Vision of Space
    Exploration” was inappropriately inserted into unrelated NASA media
    products. Witnesses informed us that at the NASA Public Affairs Officers’
    general meeting held in Pasadena, California, in November 2004, Messrs.
    Mahone and Acosta verbally directed all Public Affairs Officers in attendance
    that all news releases had to be tied to the exploration of space to promote the
    President’s “Vision of Space Exploration.” Witnesses also informed our
    investigators that this message was not well received by many in attendance,
    as it was interpreted as an attempt to politicize NASA’s research news.
    Thereafter, there were allegations that the Headquarters Office of Public
    Affairs inserted the “Vision” message into field generated news releases,
    which will be discussed in the next section.

•   Self-Censorship. Allegations that certain climate change scientists and their
    supporting Public Affairs Officers purposely diluted the scientific message of
    their proposed news releases because of their belief that political appointee
    Public Affairs officials would delete or tone down information believed to be
    contrary to Administration policies—and do so without their consultation or
    concurrence. Consequently, these scientists and Public Affairs Officers claim
    that they chose to minimize the information that could possibly be construed
    as adverse to the Administration in hopes that the end product would have
    some semblance of accuracy. Some scientists also claimed that the editing
    process was so painful that they just gave up, citing the length of time
    involved, the information being questioned, and the nonsupportive tone of the
    questions and comments generated by Headquarters-based political appointees
    in the Office of Public Affairs. One career civil service Public Affairs official
    “caught in the middle” of these debates claims to have left the Agency
    because of fear of failing health.




                                     23
       C. Examples of Purported Interference with NASA Scientists’ Proposed News
          Releases

The following are examples of news releases that members of the climate change science
community (and some of their supporting Public Affairs Officers) found objectionable
according to the categories discussed above. With respect to these examples, we were
able to substantiate, by a preponderance of the evidence, that the NASA Headquarters
Office of Public Affairs had improperly interfered with the proposed media releases. The
examples are not all-inclusive of the alleged problematic releases disclosed during the
course of the investigation but were selected for inclusion as many of the others could not
be fully corroborated through secondary sources such as documentary evidence or
additional witnesses. As mentioned earlier, we also included an example from the
astrophysics community that illustrates the negative effects of poor coordination,
dissembling/obscurantism, and self censorship.

           1. Release 03-197: NASA-Funded Study Looks at Impact of a Hydrogen
              Economy

This news release, originally submitted by scientists at NASA’s Jet Propulsion
Laboratory, is an example of a news release that was “denied” by the NASA
Headquarters Office of Public Affairs. 36 This involved a proposed joint news release by
NASA and the California Institute of Technology submitted by the Office of Public
Affairs at the Jet Propulsion Laboratory to the Headquarters Office of Public Affairs in
May 2003. The idea for the joint release was based on the journal Science agreeing to
publish on June 13, 2003, a paper titled, “The Potential Environmental Impact of a
Hydrogen Economy on the Stratosphere,” authored by California Institute of Technology
and Jet Propulsion Laboratory scientists. The Jet Propulsion Laboratory Office of Public
Affairs saw this as an opportunity to promote NASA-funded research conducted by
scientists at the two institutions.

The Jet Propulsion Laboratory Office of Public Affairs alerted the Headquarters Office of
Public Affairs that the findings were controversial as the paper documented that leaks
from mass-produced hydrogen fuel cells could decrease atmospheric ozone levels. The
alert was believed necessary because it was during this time period that the White House
was formally promoting a seemingly incongruous initiative regarding the development
and eventual use of hydrogen-fueled vehicles as an alternative to fossil fuel
transportation. In fact, on June 2, 2003, the White House released a “fact sheet” wherein
it announced that President Bush and the other G-8 Leaders had agreed on an “Action
Plan” designed to care for the environment while growing their respective economies.
Included in the Action Plan were goals for the development of hydrogen fuel cell
technology and infrastructure aimed at making fuel cell vehicles price competitive within
two decades. The fact sheet further reflected that the United States was investing $1.7



36
     This was the only instance where we could substantiate that NASA Public Affairs officials affirmatively
     declined to disseminate a proposed climate change/environmental media product to the public.


                                                      24
billion in the development of hydrogen fuel cell technology and a hydrogen-fueled
“Freedom Car.”

On June 6, 2003, the Jet Propulsion Laboratory’s draft news release was approved by the
NASA Headquarters Science Mission Directorate point of contact as a joint venture with
the California Institute of Technology. Various edited versions of the news release were
routed between the Jet Propulsion Laboratory and NASA Headquarters until June 12,
2003, when the Headquarters Office of Public Affairs notified the Jet Propulsion
Laboratory Office of Public Affairs that subsequent to consultation with the Office of
Science and Technology Policy, Executive Office of the President, the proposed news
release was canceled.

Interviews reflected two different accounts of the fate of this particular news release. The
first account, as provided by a Jet Propulsion Laboratory Public Affairs Officer, was that
the Office of Science and Technology Policy, Executive Office of the President, did not
clear the release because it had not had sufficient time to relieve its concerns about the
substance of the news release. The second account claimed that three people (Mr.
Mahone, Mahone’s Special Assistant, and a NASA Headquarters Public Affairs Officer)
telephonically contacted a representative from the President’s Council on Environmental
Quality and was told that time was needed for other departments within the U.S.
Government to review the findings. Upon termination of that telephone call, Mr. Mahone
directed the NASA Headquarters Public Affairs Officer to cancel the news release since
he was not going to issue a NASA release that conflicted with the President’s position on
the development of hydrogen-fueled cars. This account was related to us by the
Headquarters Public Affairs Officer who participated in the telephone call. Mr. Mahone
had no independent recollection of these events but advised our investigators that they
“could have happened.”

Ultimately, on June 12, 2003, the California Institute of Technology (without NASA’s
participation) issued its own press release: “Hydrogen Economy Might Impact Earth’s
Stratosphere, Study Shows.”

       2. Cancellation of Aura Satellite Press Conference Before the 2004
          Presidential Election

This is an example of NASA Headquarters Office of Public Affairs “timing” a media
event, presumably to lessen the news impact. As background, on July 15, 2004, the
“Ozone Monitoring Instrument” was launched on the Aura satellite as a joint effort
between NASA and the National Oceanic and Atmospheric Administration (NOAA). In
October 2004, the Chief Scientist for the Earth Science Division at the Goddard Space
Flight Center prepared to conduct a press conference with NOAA under the typical
NASA protocol that calls for a press conference 100 days after a launch. The press
conference was intended to demonstrate how the instruments on the Aura were being
utilized to provide direct global measurements of low-level ozone and many other
pollutants affecting air quality on Earth. According to the Chief Scientist, one specific
Aura instrument, the Ozone Monitoring Instrument, had produced some “amazing”



                                            25
results on the effects of air pollution on Earth, including how pollution contributes to
global warming.

According to the Chief Scientist, the press conference and accompanying NASA news
release were postponed. The Chief Scientist was told through a Goddard Public Affairs
Officer that the NASA Headquarters Office of Public Affairs advised that the
“Administration does not want any negative environmental news before the election . . .
as such news could alter the election.” The Chief Scientist stated his belief that the
cancellation occurred because the underlying facts of the proposed press conference
related to politically sensitive topics such as global warming and the Clean Air Act.

We also interviewed three sources who were geographically dispersed at the time of the
event—a science writer from the California Institute of Technology at the Jet Propulsion
Laboratory, a Jet Propulsion Laboratory Public Affairs Officer, and a Goddard Public
Affairs Officer. According to those interviewed, Mr. Mahone held a teleconference with
them and several other Public Affairs Officers who were working on the Aura press
conference and news release. At that teleconference, Mr. Mahone “voiced his
displeasure with having the press conference before the election and subsequently
directed that the press conference be delayed until after the 2004 Presidential elections.”
All three individuals we interviewed also stated that during the same teleconference, a
representative from the Netherlands (the Ozone Monitoring Instrument was built by the
Netherlands and Finland in collaboration with NASA) was told by Mr. Mahone that the
representative had NASA’s approval to go ahead with his planned, pre-election media
coverage since it was unlikely to be covered by U.S. media.

Of interest, the science writer is certain that the teleconference occurred a few days prior
to October 19, 2004, the date the New York Times published an article by Andrew
Revkin. 37 Mr. Revkin’s article described criticisms of scientists “in and out of
government” pertaining to the Bush Administration, and the article also references and
quotes Mr. Mahone. Mr. Revkin stated that Mr. Mahone “denied that any releases on
climate had been held up or modified by anything other than normal reviews. ‘There has
been a slowdown,’ he said.”

The appearance of this quote and statement upset the California Institute of Technology
science writer due to what had transpired with regard to Mr. Mahone’s decision regarding
Aura a few days prior to the article. In sum, the event prompted him/her to e-mail the
former President of the California Institute of Technology on October 26, 2004,
documenting what had transpired during the teleconference with Mr. Mahone and citing
that political concerns were the reason given as to why a press conference announcing the
results from the Aura Satellite would be postponed from October 2004 to December
2004.




37
     Andrew C. Revkin, “Bush vs. the Laureates: How Science Became a Partisan Issue,” New York Times,
     October 19, 2004.


                                                   26
The Goddard Public Affairs Officer also notified the Goddard Chief Scientist about what
had transpired during the teleconference and the cited political reason the Aura press
conference was postponed.

Nevertheless, the press conference did not occur in October 2004 as initially planned.
NASA officials eventually did hold a post-election Aura press conference on
December 14, 2004, at the American Geophysical Union in San Francisco, California.
On the same date, NASA issued news release 04-391 “NASA’s Aura Satellite Sheds New
Light on Air Quality and Ozone Hole.” News release 04-0391 advised the public that
“for the first time, Aura will help scientists monitor global pollution production and
transport with unprecedented spatial resolution.” The Goddard Chief Scientist was
quoted as saying the “Aura early results are nothing short of astounding; measurements
like these will help us better understand how the ozone hole will react to future
stratospheric cooling, which is expected as carbon dioxide levels continue to rise.”

           3. Release 04-337: Study Shows Potential for Antarctic Climate Change

This news release, originally submitted by a scientist at the Goddard Institute of Space
Studies, is an example of “poor coordination” and “dissembling/obscurantism” by the
NASA Headquarters Office of Public Affairs. In early September 2004, a Goddard
Institute for Space Studies’ scientist prepared a draft news release, “Cool Antarctica May
Warm Rapidly this Century” and submitted it to the Goddard Space Flight Center Office
of Public Affairs. The scientist prepared the draft in connection with a published paper
that provided an explanation as to how ozone levels and increased greenhouse gases
combine to affect the climate of Antarctica and that the coming decades may see a
dominant warming trend.

This was the first study using a Goddard Institute for Space Studies’ climate model to
observe how the depletion of ozone and increased greenhouse gases worked together to
impact Antarctic temperatures. The media product was not released until October 6,
2004, and then under the title “Study Shows Potential for Antarctic Climate Change.”
The scientist opined that due to the title change his findings received limited media
coverage. 38 He stated that the title change had the effect of deadening the media interest
in the study because it “said nothing.”

The scientist stated that he was not consulted on the changes made to the release nor did
he know who made them. The scientist related that the lack of transparency as to who
actually made the changes increased the problems because the scientist did not know with
whom to work to resolve differences. Due to the lack of documentation concerning the
edits, we could not determine who made the changes, despite a detailed review of all of
the records available as well as interviews with the scientists and numerous Public
Affairs Officers at the Field Center and at Headquarters.



38
     This release occurred less than one month before the 2004 Presidential Election. It was one of five
     climate-related news releases that month, and the only one that appeared to have a climate “change”
     message.


                                                      27
           4. Release 04-0386: NASA Study Links Wind and Current Changes to
              Indian Ocean Warming

This December 2, 2004, news release submitted by NASA’s Jet Propulsion Laboratory is
an example of “mixed messaging” by the NASA Headquarters Office of Public Affairs.
The release described a study by the Jet Propulsion Laboratory that suggests changing
winds and currents in the Indian Ocean during the 1990s contributed to the observed
warming of the Indian Ocean during that period. The scientist who proposed the release
requested that it be withdrawn after it was issued because it contained a quote written for
him, which he felt pressured to accept. He only accepted the quote as it was necessary to
fulfill the then new requirement for all news releases to be somehow related to the
President’s Vision for Space Exploration. The added quote was as follows:
               These findings from satellite data also advance space exploration by
               increasing understanding of how complex planetary system elements, such as
               winds and currents, in our home planet interact to drive climate change. Such
               technologies, which have been demonstrated to be critical in understanding
               Earth’s climate system, may someday prove useful in studying climate
               systems on other planets.

The scientist objected to the inclusion of the quote as it did not have any relevance to the
study he conducted, and he believed that Earth science researchers should not have to
justify their work on Earth by trying to tie that work to an Administration policy goal
regarding the exploration of other planets.

On December 5, 2004, the Director, Jet Propulsion Laboratory, found out about this
incident and sent an e-mail to his staff in which he related the following:

               I want to emphesise [sic] two golden rules that we should follow on all our
               science related press releases: 1) No science related press release will go out
               without full approval of the senior science author or PI, and under no
               condition should a PI be pressured to put any statement that he/she do not
               fully agree with. 2) our first, second, third . . . and only priority is scientific
               integrity. Our integrity can not be compromised no matter what the reason. 39


On December 6, 2004, a Headquarters Public Affairs Officer electronically notified a
Public Affairs Officer at the Jet Propulsion Laboratory stating, “You can safely assure
your customers that HQ is NOT going to insist everything has Vision tag lines.”

           5. Release 05-344: NASA’s Chandra Reveals New Star Generation

This news release, submitted by a scientist of the Astrophysics Division of the Science
Mission Directorate, is not specifically related to climate change but illustrates the
unintended consequences of “poor coordination” when changes are made by editors


39
     The Director, Jet Propulsion Laboratory, became part of the NASA team that helped develop the NASA
     Administrator’s new policy on science and media relations.


                                                        28
without consulting the scientists who conducted the study. In this case, the NASA
Headquarters Office of Public Affairs newsroom introduced a number of factual and
conceptual errors into the news release including the mischaracterization that Chandra (a
satellite observatory) had discovered a “new generation of stars,” when, in fact, the stars
discussed in the release were already known to exist. Scientists who conducted the
research were not included in the review of the final news release. According to our
sources, this news release was not only wrong but also left the embarrassing impression
that NASA did not understand its own science.

           6. Release 05-434: NASA’s Aura Satellite Peers into Earth’s Ozone Hole

This news release, submitted by a scientist at the Goddard Space Flight Center, is another
example of “poor coordination” and “dissembling/obscurantism.” The submitting
scientist’s proposed title for the news release was “2005 Ozone Hole Fifth Largest on
Record.” This release was intended to reflect a study conducted by scientists at Goddard
Space Flight Center that concluded that the ozone hole was getting larger and that the
hole as measured in 2005 was the fifth largest ever. Edits made, however, by
Headquarters Public Affairs Officers to both the title and to the body of the news release
arguably changed its substantive meaning by giving the impression that the ozone hole
was improving. 40

Apart from the title, edits were also made to the body of the article, to include a
substantive change to the first sentence. The first sentence of the proposed release
authored by the scientist was, “The ‘ozone hole’ that develops over Antarctica was larger
this year than in 2004 and was the fifth largest on record.” In contrast, the first sentence
of the actual release, as edited by the Headquarters Office of Public Affairs, stated,
“NASA researchers, using data from the Agency’s AURA satellite, determined the
seasonal ozone hole that developed over Antarctica this year is smaller than in previous
years.” Although technically correct, the NASA researcher stated that this sentence
changed the overall tenor of the findings of the study, which had determined that the
ozone hole was the fifth largest ever. The sentence was also incongruent with statements
made later in the release concerning the relative growth of the ozone hole since the
1980s. As the release points out, the largest recorded measurement for the hole was
10 million square miles in 1998. The release also points out that for 10 of the last 12
years the ozone hole has been larger than 7.7 million square miles, while prior to 1985
the hole was never larger than 4 million square miles.

The edits served to convey a message to the public that was inconsistent with the study’s
results. For example, the proposing scientist (who was not notified of changes to the
headline or to the first sentence) was approached by the media and asked to explain why
the ozone hole was smaller. He said he had difficulty fielding such questions, as his
study was in contradiction to the findings as put forward in the news release.


40
     According to the News Chief at the Goddard Space Flight Center, after receiving and reviewing the
     proposed draft, a political appointee at the Headquarters Office of Public Affairs arguably revealed his
     office’s editorial intent by asking, “Can’t we say something positive, this is very negative.”


                                                       29
       7. Release 06-009: NASA’s Spitzer Finds Possible Comet Dust around
          Dead Star

This release was another example of “dissembling/obscurantism,” “self censorship,” and
“poor coordination” and was based upon research conducted by astronomers from the
Goddard Space Flight Center and the California Institute of Technology that had been
published in Astrophysical Journal. Their Astrophysical Journal article reflected some of
the scientific observations made from “Spitzer,” a NASA satellite. The astronomers’
research in this matter included drawing parallels between a dead solar system and the
Earth’s solar system. Eventually, the astronomers (working with the Jet Propulsion
Laboratory Office of Public Affairs) prepared a news release regarding their research that
was intended to coincide with an upcoming American Astronomical Society (AAS)
conference. The proposed release was submitted to and then edited by the NASA
Headquarters Office of Public Affairs. The editor of the release told our investigators
that he/she removed all references to the Earth’s solar system and minimized the cited
“parallels” between the dead solar system and Earth’s solar system. In an e-mail at or
about the time of this release, the editor commented that “NASA was not in the habit of
frightening the public with doom and gloom scenarios.” That same editor also told our
investigators that the changes were necessary in order to get the news release approved
by Mr. Acosta. Finally, the Headquarters’ edits were not sent to the scientist until it was
too late for him to make the necessary revisions before the news release was
disseminated. During the AAS conference, the Goddard Space Flight Center astronomer
was questioned as to why the news release did not contain any information about the
study’s findings concerning our own solar system.

       8. NASA Headquarters Web Feature, February 8, 2005, “Earth Gets a
          Warm Feeling All Over”

This climate change Web feature, originally submitted as a news release by Dr. Hansen
of the Goddard Institute for Space Studies, is an example of “news forum minimization”
by the NASA Headquarters Office of Public Affairs. In early January 2005, Dr. Hansen
submitted a draft news release to support an annual story about the average annual Earth
temperature. The release was based on a report issued by the Goddard Institute for Space
Studies at the end of calendar year 2004. After a 2-week review, the NASA
Headquarters Office of Public Affairs changed the proposed release to a Web feature. As
previously discussed, NASA scientists and NASA Public Affairs Officers consider a Web
feature conversion as a “downgrade” because media outlets look mostly to NASA news
releases to generate articles.

       9. NASA Headquarters and Goddard Space Flight Center Web Posting,
          September 28, 2005, Arctic Sea Ice Continues to Decline, Arctic
          Temperatures Continue to Rise in 2005

This climate-related Web posting, originally submitted by a NASA scientist at the
Goddard Space Flight Center, is an example of “self-censorship,” attempted
“dissembling/obscurantism,” and “news forum minimization.” Scientists from Goddard
Space Flight Center, Jet Propulsion Laboratory, and the University of Colorado issued


                                            30
research findings that the Arctic ice blanketing the ocean was shrinking. Anticipating
that the NASA Headquarters Office of Public Affairs was predisposed to make the
release of any information related to climate change very difficult, the proposing
Goddard Space Flight Center scientist and Goddard Office of Public Affairs submitted a
draft news release which, in their opinion, did not emphasize climate change or was
otherwise “alarmist” in nature. According to the Goddard Space Flight Center scientist
who conducted the study, Mr. Deutsch of the NASA Headquarters Office of Public
Affairs edited the proposed news release and returned it to the scientists with phrases
such as “but this is not certain,” “it could grow back thicker,” and”it may not be the case
in the future” after each paragraph containing a scientific statement. The scientist stated
that Mr. Deutsch introduced erroneous scientific information into the news release as
well.

The draft was returned to the Goddard Space Flight Center scientist who attempted to
make corrections and then resubmitted it. At this same time, a senior Science Mission
Directorate scientist reviewed the Deutsch draft and stated that the science presented
made no sense. This same scientist then worked with Mr. Deutsch and the Goddard
Space Flight Center scientist to ultimately return the draft to nearly its original form. Due
to the extended review process, however, according to the Headquarters Public Affairs
Officer, NASA missed its own news release deadline and the story was converted to a
Web feature, while the University of Colorado issued its own news release, given that
NASA had missed the deadline.

       10. Goddard Institute for Space Studies Web Feature, March 16, 2006,
           “NASA Links ‘Smog’ to Arctic Warming”

This Web feature, originally submitted by a NASA scientist at the Goddard Institute for
Space Studies as a draft news release, is an example of “news forum minimization.” On
December 29, 2005, a Goddard Institute for Space Studies scientist submitted a draft
news release to the NASA Headquarters Office of Public Affairs through the Goddard
Space Flight Center in connection with an article accepted for publication in the
American Geophysical Union’s Journal of Geophysical Research-Atmospheres. The
draft presented scientific findings that ozone pollution plays a role in Arctic warming.

In correspondence between Public Affairs Officers at the Goddard Space Flight Center
and Headquarters, Mr. Deutsch of the NASA Headquarters Office of Public Affairs
questioned how this story was different from other news releases done on the same topic.
In an e-mail dated January 10, 2006, Mr. Deutsch stated,
       If any of you can provide me with ways this release/feature would substantially
       expound on the previous umpteen releases/features we’ve done on this subject, I’d be
       interested to know.... I just don’t see any huge news value in this.... I vote no, and
       I’d be happy to discuss this with anyone interested and/or hear dissenting opinions.

While there is nothing inherently wrong with a Headquarters Office of Public Affairs
official asking questions about the merits of a proposed news release, this type of
statement, within the context of the relationship between the Headquarters Office of
Public Affairs and the climate change scientists, supports the view that scientists seeking


                                                  31
to publicize any scientific results related to climate change research would be better off
using other forums.

Sources inform us that at some point between January 11 and February 6, 2006, the
scientist provided additional information to Mr. Deutsch (through the Goddard Space
Flight Center Public Affairs Officer) that explained the significance of the scientific
findings. But after continued delays through February and early March (while the
product was apparently still being reviewed at Headquarters) during which time Mr.
Deutsch provided no explanation as to the reasons for the delay, a Goddard Public Affairs
Officer suggested to the scientist that they should consider a Web feature instead of a
news release, telling the scientist that it was a “waste of time” and effort to try to get the
news release approved because the Headquarters Office of Public Affairs would deny it
because it related to climate change. The scientist agreed, but commented at the time to
his/her Public Affairs representative that journalists look for news releases, not Web
features. The Goddard Space Flight Center Public Affairs Officer stated to our
investigators that his/her comments to the scientist (recommending a Web feature) were
based on his/her belief that if a media product dealt with a climate study, then the NASA
Headquarters Office of Public Affairs would not issue it as a news release. On March 14,
2006, the Goddard Institute for Space Studies simply posted the research findings to its
Web site.

       11. Media Advisory M04-192: NASA Study Finds Glacier Doing Double
           Time

This media advisory, originally submitted by a Goddard Space Flight Center scientist as a
draft news release, was another example of “news forum minimization” and attempted
“mixed messaging.” The draft news release was prepared by the scientist in connection
with a paper published by Nature, describing the acceleration of the world’s fastest
glacier in Greenland to nearly twice its speed as a result of melting and the retreat of the
floating ice-tongue that was holding back the glacier. The NASA Headquarters Office of
Public Affairs inserted a comment about how understanding ice on Earth helps us
understand Mars in an apparent attempt to link this research to the President’s Vision for
Space Exploration. The scientist who conducted the research acknowledged to our
investigators that the statement was technically correct but not in the context of the study.
The scientist expressed his disapproval with the comment to the Headquarters Office of
Public Affairs and it was removed. Nevertheless, at the direction of Headquarters Office
of Public Affairs’ supervisors, the NASA Headquarters newsroom changed the news
release to a media advisory because they wanted to “downplay” the news release, thus
reducing the readership because media advisories would not receive attention from the
national news.


V. Allegations and Instances of Improper Denial of Media Access

This aspect of our investigation focused primarily on allegations that the NASA
Headquarters Office of Public Affairs improperly denied National Public Radio’s request
to interview Dr. Hansen of the Goddard Institute for Space Studies, as well as other


                                             32
incidents whereby Dr. Hansen was seemingly denied access to the media or was
otherwise allegedly suppressed or censored. 41

The escalating chain of events described in the following sections culminated in the
NASA Headquarters Office of Public Affairs’ decision to deny National Public Radio’s
request to interview Dr. Hansen and eventual allegations that the NASA Headquarters
Office of Public Affairs directed the “monitoring” of Dr. Hansen’s activities. Denial of
National Public Radio’s interview request and the events leading up to it brought national
attention to and criticism of NASA’s policies and procedures related to the dissemination
of climate change research information and played a large role in NASA’s eventual
decision to revise its policies concerning the news releases and media access.

Our investigation concluded that a contributing factor to the controversies surrounding
media access to Dr. Hansen was a series of ad hoc procedures instituted by the NASA
Headquarters Office of Public Affairs. Those procedures, which appeared to be
incrementally implemented (and selectively applied) began in the fall of 2004 and
arguably eroded NASA’s previous policy (discussed in Part III) of “widest practicable”
news dissemination that generally permitted journalists to have direct access to those
NASA officials they seek to interview.

Based on our interviews and review of relevant e-mails, these newly prescribed processes
included a requirement for a Public Affairs Officer to be present during media interviews;
that the interviews be taped; and that permission be granted by the NASA Headquarters
Office of Public Affairs (who could exercise a “right of first refusal”) before speaking to
the media.

NASA Headquarters Office of Public Affairs officials told us that the procedures were
instituted in order to have a reasonable preparation time regarding likely inquiries from
the national and international media based on public comments made by NASA
scientists. In connection to Dr. Hansen in particular, Messrs. Mould and Acosta
generally commented to us that appropriate steps were taken to simply make sure that the
Agency had a “heads-up” about his media contacts so that the Agency could intelligently
respond to inquiries that resulted from Dr. Hansen’s appearances. According to Messrs.
Acosta, Mould, and Mahone, there were several reasons to have a program official and/or
Public Affairs Officer present at interviews. These included the importance of having an
appropriate NASA official present who could provide information concerning NASA’s
policies beyond the scientific findings about which Dr. Hansen could speak, the need to
answer any questions on topics beyond climate change, the necessity of ensuring the
accuracy of the information being given and the need to ensure the sharing of the results
of the interview with the appropriate parties within NASA. Again, Messrs. Mould and


41
     We note that during the time period in question (December 2005–February 2006), Dr. Hansen conducted
     approximately 20 media interviews, including one with 60 Minutes and, ultimately, one with National
     Public Radio. Therefore, while the incidents described in this report reasonably reflect efforts by NASA
     Headquarters Office of Public Affairs to limit or at least monitor Dr. Hansen’s access to the media,
     Dr. Hansen did, in fact, have considerable media interaction.



                                                       33
Acosta state that any problems with this process were caused by Dr. Hansen and not by
any political agenda on their part. Dr. Hansen and the other climate change scientists we
interviewed, however, interpreted the new policies as a politically motivated form of
scientific suppression and censorship.

   A. Dr. Hansen’s Speech at the 2005 American Geophysical Union Conference

On December 6, 2005, Dr. Hansen spoke before an American Geophysical Union
meeting in San Francisco, California, where he discussed the perils of climate change.
He prefaced his speech by stating that the views he was providing were his own and not
those of NASA. In an excerpt from his presentation, titled “The Tipping Point,” which
Dr. Hansen provided to this office, he states,

       The Earth’s history suggests that with warming of two to three degrees, the new sea
       level will include not only most of the ice from Greenland and West Antarctica, but a
       portion of East Antarctica, raising sea level by 25 meters, or 80 feet. Within a
       century, coastal dwellers will be faced with irregular flooding associated with storms.
       They will have to continually rebuild above a transient water level.

       This grim scenario can be halted if the growth of greenhouse gas emissions is slowed
       in the first quarter of this century.

Understandably, Dr. Hansen’s comments drew significant media reaction: he was a
NASA climate change scientist; his research was federally funded; and he was in charge
of a leading scientific organization specializing, in part, in global climate change science.
Therefore, it was a likely consequence for listeners and the national media to infer that
Dr. Hansen’s “views” were, in fact, based upon his scientific observations resulting from
his Federal employment with NASA. So, while Dr. Hansen did preface his speech by
saying his views were his own and not NASA’s, it was quite reasonable, given his strong
message and his leadership position at one of NASA’s premier research facilities, that
NASA leadership would be held to answer follow-up questions and inquiries.

The media attention drawn to Dr. Hansen’s speech at the American Geophysical Union
meeting was closely followed by significant media attention drawn to the Goddard
Institute for Space Studies’ posting of 2005 climate change data to its Web site, discussed
below.

   B. Goddard Institute for Space Studies’ Web Site Posting Reflects that
      2005 Is Warmest Year in Century

On December 6, 2005, the same day that Dr. Hansen made his speech in San Francisco,
the Goddard Institute for Space Studies (the organization he leads) posted on its Web site
its findings concerning the 2005 global surface temperatures. On December 8, 2005, a
reporter from The Washington Post e-mailed Dr. Hansen advising him that she “got the
latest GISS figures” and wanted to talk about them. In a December 8, 2005, e-mail
response, Dr. Hansen briefly discussed the temperature data and advised that based on an
agreement with the National Oceanic and Atmospheric Administration, the Web posting
was premature and the data would not be officially released until December 15, 2005.


                                                   34
Dr. Hansen did not notify anyone in the Office of Public Affairs about this media
contact. 42

On December 10, 2005, The Washington Post published an article that focused on the
point that NASA planned to release temperature data reflecting that 2005 remained on
track to be the hottest year in recorded history. There was no known reaction to this story
by the NASA Headquarters Office of Public Affairs.

On December 13, 2005, ABC News e-mailed the Goddard Space Flight Center Office of
Public Affairs and requested additional information on the Goddard Institute for Space
Studies’ release of temperature data for an upcoming story to be broadcast by ABC’s
Good Morning America. That office advised ABC News that the temperature data would
not be officially released until December 15, 2005, and to contact Mr. Deutsch or another
Headquarters Public Affairs Officer to coordinate any interviews of NASA officials. On
December 14, 2005, a Good Morning America producer contacted a Headquarters Public
Affairs Officer. The Public Affairs Officer surmised that the producer was primarily
gathering general information on the temperature data and that Good Morning America
media coverage was not imminent. The Public Affairs Officer planned to tell Mr. Acosta
about the contact the following day but by then Good Morning America had already aired
its story.

We also learned that an ABC News correspondent contacted Dr. Hansen directly on either
December 13, 2005, or December 14, 2005. Dr. Hansen spoke with the correspondent
and provided a copy of a letter he had provided to the journal Science titled “Global
Warming Continues.” This exchange led to a subsequent story (December 15, 2005) on
ABC’s Good Morning America about NASA releasing the annual temperature data and
the significance of the data as it pertained to global warming. A Headquarters Public
Affairs Specialist contacted the Goddard Institute for Space Studies Public Affairs
Coordinator and questioned the Coordinator about the ABC News story, while relating
that a “S--t storm” was taking place at NASA Headquarters, that the Associate
Administrator for the Science Mission Directorate was irate, and that the NASA
Administrator was receiving calls from the White House. Headquarters’ displeasure was
also documented in Mr. Deutsch’s December 15, 2005, “point paper,” wherein he noted
frustration that members of his office were yet again upset that Dr. Hansen had interacted




42
      Under NASA’s Public Affairs regulations promulgated in 2006, “NASA employees may speak to the
     media and the public about their work. When doing so, employees shall notify their immediate supervisor
     and coordinate with their Public Affairs Office in advance of interviews whenever possible, or
     immediately thereafter, and are encouraged to the maximum extent practicable, to have a Public Affairs
     Officer present during interviews” (14 C.F.R.§ 1213.105 (2006)). But in 2005, NASA’s regulations did
     not require (or suggest) that Dr. Hansen notify or coordinate with a supervisor or Public Affairs officials.
     The 1991 NASA regulations only go as far as stating, “Normally, requests for interviews with NASA
     officials will be made through the appropriate Public Affairs Office. However, journalists will have
     direct access to those NASA officials they seek to interview” (14 C.F.R. § 1213.105 (1991)). In fact, the
     policy was that NASA officials “may participate in interviews and speak for the Agency in areas of their
     assigned responsibility” (14 C.F.R. § 1213.101 (1987)).


                                                        35
with the media without prior notification to Headquarters. 43 Mr. Deutsch’s later
testimony before Congress, on March 19, 2007, was that NASA was deluged with media
inquiries and was ill-equipped to respond to public inquiries on this matter because
NASA Headquarters was not informed beforehand.

The Goddard Institute for Space Studies Public Affairs Coordinator disagrees regarding
Headquarters’ complaints of no notification, stating that he/she provided specific advance
notice to NASA Headquarters Office of Public Affairs that the global surface-air
temperature posting would garner increased media attention because the results indicated
the 2005 meteorological year was the warmest year in a century. 44 According to
Dr. Hansen and his Public Affairs Coordinator, as in previous years, the Goddard
Institute for Space Studies was not seeking permission from the Headquarters Office of
Public Affairs to update and post its findings because it was not a news release. By
notifying that office in advance of the upcoming Web site posting, the Goddard Institute
for Space Studies was simply attempting to follow the verbal “heads-up” policy
concerning the prior notification of scientific findings that would receive national media
interest.

On December 15, 2005, as a result of these incidents, the Goddard Institute for Space
Studies Public Affairs Office Coordinator was teleconferenced by Messrs. Mould and
Acosta and three Headquarters Office of Public Affairs officials and told that all media
interview requests with a NASA employee must be coordinated with the Headquarters
Office of Public Affairs. They further directed that no comments or interviews should be
granted until they were coordinated and approved by senior Science Mission Directorate
officials and the Headquarters Office of Public Affairs. Messrs. Mould and Acosta
further directed that senior Science Mission Directorate officials would have the “right of
first refusal” and would direct who would handle that Mission Directorate’s related media
requests. The Coordinator also stated that Mr. Mould commented that he was “tired of
Jim Hansen trying to run an independent press operation . . . from now on I want to know
everything he does.” The three Headquarters Office of Public Affairs officials stated to
us that the comment by Mr. Mould was part of a heated discussion with the Goddard
Institute for Space Studies Public Affairs Coordinator and was in direct response to the
Coordinator’s comment that his/her office did not answer to Mr. Mould.

During the teleconference, according to the Public Affairs Coordinator, Messrs. Mould
and Acosta verbally directed the Coordinator that, unlike previous practice, all Goddard
Institute for Space Studies’ postings to its Web site must be approved by senior Science


43
    The point paper was titled “Communications Breakdown between Headquarters and GISS [Goddard
   Institute for Space Studies].”
44
    December 1, 2004, to November 30, 2005 was the year measured. Regarding Headquarters notification,
   the Goddard Institute for Space Studies Public Affairs Coordinator told us that on December 12, 2005, a
   teleconference with Mr. Deutsch and another Headquarters Public Affairs Specialist took place during
   which they were informed that the upcoming 2005 temperature posting would most likely generate a lot
   of media attention. A Headquarters Public Affairs Officer subsequently acknowledged that the
   Coordinator did, in fact, tell him/her that the temperature data would probably generate a lot of media
   attention but that he/she misinterpreted what he/she was told.


                                                    36
Mission Directorate officials and the Headquarters Office of Public Affairs. This was a
departure from previous policy insomuch as this level of approval included the Web
posting of scientific journals, data releases, science briefs, and news features.
Additionally, all speeches, data releases, and scientific meetings that included Goddard
Institute for Space Studies scientists were to be reported to the Headquarters Office of
Public Affairs so it could be aware of any activities that would draw national media
attention.

On this same date (December 15, 2005), Mr. Deutsch sent an e-mail to the Goddard
Institute for Space Studies’ Public Affairs Coordinator, and others, in which he told them
that no interviews with Goddard Institute for Space Studies’ employees would be given
until coordinated with the Headquarters Office of Public Affairs. In his interview with
this office, Mr. Deutsch advised that Mr. Acosta later directed him that “no more
interviews” of NASA scientists were to be conducted regarding the Goddard Institute for
Space Studies’ posting of the 2005 temperature data. Mr. Deutsch also informed the
Goddard Institute for Space Studies’ Public Affairs Coordinator that the 2005
temperature data must be removed from their Web site until additional approval was
obtained. Subsequently, the data were re-posted on December 16, 2005, with NASA
Headquarters Office of Public Affairs’ permission.

On December 16, 2005, the Chief of the Goddard Space Flight Center Office of Public
Affairs, was telephonically contacted by Messrs. Mould and Acosta. The Chief advised
us that Mr. Acosta told him/her that the Headquarters Office of Public Affairs’ policy
concerning a “heads-up” on media inquiries had changed and that the Headquarters
Office of Public Affairs now wanted to know everything that Dr. Hansen was doing.
Later that day, the Chief telephoned the Goddard Institute for Space Studies Public
Affairs Coordinator for the purpose of comparing notes regarding Messrs. Acosta’s and
Mould’s calls. The Goddard Institute for Space Studies Public Affairs Coordinator then
told the Chief (and eventually our investigators) that Messrs. Acosta and Mould had
called him/her as well and given similar instructions with regard to Dr. Hansen. As a
result, the Chief felt Dr. Hansen was being “singled out” by the Headquarters Office of
Public Affairs, which prompted him to send an e-mail to Dr. Hansen’s supervisors
notifying them of the Headquarters Office of Public Affairs’ desire that the Goddard
Space Flight Center Office of Public Affairs monitor Dr. Hansen—and that the Chief did
not think that was their job.

On December 20, 2005, the Chief of the Goddard Space Flight Center Office of Public
Affairs sent an e-mail to Messrs. Acosta and Mould memorializing the directions given
during the teleconference in an attempt to get written confirmation of these directives.
Neither Mr. Acosta nor Mr. Mould replied to the e-mail. Both later claimed to NASA
leadership and congressional staff that they never received it. Congressional staff
informed our investigators that Messrs. Mould and Acosta denied that the contents of the
e-mail accurately reflected what was discussed and that the teleconference with the
Goddard Institute for Space Studies Public Affairs Coordinator was not an initiation of a
monitoring effort but was only a reiteration of the “heads-up” policy already in place. In
contradiction to this denial, the three Headquarters Office of Public Affairs officials who
were party to the December 15, 2005, teleconference all concurred that the contents of


                                            37
the e-mail message both accurately summarized the directions given during the
teleconference and the way that the NASA Headquarters Office of Public Affairs worked.
Mr. Mould suggested to the Congressional staff that the e-mail was never sent and must
have been retyped because it did not look like a NASA e-mail.

Our investigation confirmed that that e-mail from the Chief of the Goddard Space Flight
Center Office of Public Affairs was, in fact, drafted, sent, and received by others who
were on the same distribution list as Messrs. Acosta and Mould. Further, a forensic
examination of electronic data obtained from Mr. Acosta’s NASA-issued computer
revealed that the e-mail had been successfully delivered to Mr. Acosta’s e-mail address
and it had been saved to his hard drive as a normal function of e-mail retrieval from the
server. The examination of available data further showed that he (or someone operating
his equipment) had received and reviewed the e-mail on his Blackberry device, and then
forwarded it to another Headquarters Office of Public Affairs staff member for advice,
who, in turn, responded to him via e-mail correspondence.

The examination of electronic data obtained from Mr. Mould’s NASA-issued computers,
however, was inconclusive. Due to the short retention schedule for information on the
NASA electronic mail servers, evidence of the mail being delivered to Mr. Mould could
not be shown forensically through a review of the information on the servers at the time
that the information was obtained. 45 We believe, however, based on the totality of the
evidence, that the most likely scenario was that the e-mail was successfully delivered to
Mr. Mould’s e-mail account given that it was properly addressed to him and that every
other addressee on the e-mail (either as a “to” or “cc”) received it.

On or about December 19, 2005, the Headquarters Office of Public Affairs direction to
“monitor” Dr. Hansen was deemed inappropriate by the Chief of the Goddard Space
Flight Center Office of Public Affairs who had consulted on this issue with Dr. Hansen’s
supervisory chain of command. Dr. Edward J. Weiler, the Goddard Space Flight Center
Director, told us that he personally discussed the matter with Dr. Hansen and told him
that he supported his media appearances and cautioned him to only discuss climate
change science and not address policy issues. As a result, no sustained monitoring of
Dr. Hansen or other Goddard Institute for Space Studies’ scientists occurred, aside from
the reporting of his media appearances/contacts to Headquarters Office of Public Affairs
from winter 2005 through spring 2006.


45
      The NASA Office of Inspector General conducted an audit of the Agency e-mail retention policy and
     provided a draft of the audit to the Agency for comment. This audit discovered that NASA’s e-mail
     retention guidance does not adequately address the National Archives Records Administration (NARA)
     requirements for electronic records management. NASA’s noncompliance with NARA’s regulations
     and NASA’s requirements for records management has increased the risk of permanent loss of
     (1) institutional memory, (2) records containing essential transactions that protect the legal and financial
     rights of the Government and persons directly affected by NASA activities, and (3) records permitting
     NASA to be responsive to Congress and oversight agencies. NASA has developed and is finalizing
     comprehensive electronic records management guidance and Agency-wide electronic records
     management training. “Final Memorandum on Audit of Retention of NASA’s Official Electronic Mail”
     (IG-08-010, February 28, 2008).
.


                                                         38
   C. NASA Headquarters Office of Public Affairs Denies National Public Radio’s
      Request to Interview Dr. Hansen

On December 8, 2005, the producer of On Point, a live morning news program on
National Public Radio’s affiliate WBUR-FM in Boston, Massachusetts, e-mailed the
Goddard Institute for Space Studies’ Public Affairs Coordinator and inquired about
interviewing Dr. Hansen on the topic of climate change. The producer specifically
requested Dr. Hansen for the interview and hoped it would occur immediately following
the 2005 United Nations Climate Change Conference in Montreal, Canada, scheduled for
November 28—December 10, 2005. The Goddard Institute for Space Studies Public
Affairs Coordinator then notified the NASA Headquarters Office of Public Affairs of the
request. According to a December 8, 2005, e-mail from Mr. Deutsch, he advised the
Goddard Institute for Space Studies Public Affairs Coordinator of the following:
       It looks like Mary [Cleave] or Colleen [Hartman] will be doing it. I spoke with Dean
       [Acosta] about how best to broach this topic with Jim [Hansen], and he said to simply
       say “you [sic] boss would like to handle this interview.”

On December 9, 2005, Mr. Deutsch e-mailed the Goddard Institute for Space Studies’
Public Affairs Coordinator to give him/her an update of the status of the National Public
Radio request. In this e-mail Mr. Deutsch advised,

       Senior management has asked us not to use Jim Hansen for this interview. His SMD
       bosses, Colleen [Hartman] and Mary [Cleave], have expressed interest in doing it. So if
       any NPR folks contact you/Jim [Hansen] about this, please let them know someone else
       will be available for their interview and let them know I will be coordinating this
       request and all correspondence relating to it need [sic] to go through me specifically.

Mr. Deutsch also advised that he spoke with National Public Radio representatives
briefly (December 9, 2005) and they indicated “they really wanted Jim [Hansen] but
they’ll take who we can give them . . ..”

On December 12, 2005, a series of e-mails was exchanged between Mr. Deutsch and
National Public Radio. Early on December 12, 2005, National Public Radio advised
Mr. Deutsch that they saw Dr. Hansen quoted over the weekend and were curious why he
was not available and that he (Dr. Hansen) seemed like the key player. Mr. Deutsch
responded by telling National Public Radio that NASA had a lot of informed scientists
who could share their expertise with the media and that Dr. Hansen’s management
expressed an interest in being interviewed. National Public Radio responded they were
going to pass on all NASA voices except for Dr. Hansen but that if anything changed,
someone should let them know. Mr. Deutsch responded that if those were the parameters
that National Public Radio set in place, then NASA would have to decline this interview.
In his interview, Mr. Mould stated that Mr. Deutsch handled the request from National
Public Radio correctly in that any policy issues raised during the interview needed to be
answered by senior NASA management officials and Dr. Hansen should speak only on
the scientific issues raised. Since National Public Radio only wanted Dr. Hansen, the
interview could not be done.



                                                  39
Also on December 12, 2005, a Headquarters Office of Public Affairs Officer left a voice
mail for the Goddard Institute for Space Studies Public Affairs Coordinator that was
documented in his/her written notes. The notes reflect that the Public Affairs Officer
stated that if Dr. Hansen did the interview “there would be dire consequences.” The
Headquarters Public Affairs Officer acknowledged making the “dire consequences”
statement, although he/she thought it was said during a teleconference between
himself/herself, the Coordinator, Mr. Deutsch, and Goddard Space Flight Center Public
Affairs representatives that took place on December 12, 2005. The Public Affairs Officer
explained that the comment was made during a “heated” discussion with the Coordinator,
wherein the Coordinator refused to take direction from him/her stating that he/she
(Coordinator) did not work for them. During this teleconference, the Coordinator
documented that Mr. Deutsch commented “HQ says JH [Dr. Hansen] can’t say anything.
We can’t have this anymore.”

Mr. Deutsch, in both his interview with this office and in his sworn congressional
testimony before the House Committee on Oversight and Reform on March 19, 2007,
stated, with respect to the National Public Radio request, that his supervisor (Mr. Acosta)
directed him to invoke the “right of first refusal” and instead of making Dr. Hansen
available, have Dr. Mary Cleave, the Associate Administrator of the Science Mission
Directorate, or Dr. Colleen Hartman, the Deputy Associate Administrator of the Science
Mission Directorate, participate in the interview. These statements are corroborated by
the nearly contemporaneous e-mails sent by Mr. Deutsch, in which he states that he had
spoken to “Dean” [Acosta] about the interview. And the “right of first refusal” attempt
was further corroborated by Dr. Cleave, who reported that when she was approached by
Mr. Deutsch or another official from the NASA Headquarters Office of Public Affairs
about doing the interview, she refused. Similarly, Dr. Hartman was approached and not
interested in doing the interview either. Mr. Deutsch also commented to us that although
the “right of first refusal” was a verbal policy at the Headquarters Office of Public
Affairs, he was never directed to invoke the policy outside of this specific incident.

Of interest, the Agency’s position is that Mr. Deutsch was the Headquarters Office of
Public Affairs’ representative who denied National Public Radio’s request to interview
Dr. Hansen. To a degree, that is true. According to Mr. Deutsch, however, this denial
was based on the direction given to him by his supervisor, Mr. Acosta, which we believe
is credible. Mr. Acosta denies giving such direction and, indeed, NASA appears to have
adopted the position that Mr. Deutsch (as a 24-year-old GS-9 in his first job in
Government) acted independently when making the decision to deny National Public
Radio’s request.

The information gathered during the course of our investigation, however, reflects that
Mr. Deutsch has been consistent in his statements concerning the denial—including
statements made under oath—and that this specific denial was in keeping with the
general methodology and policies then instituted by the Headquarters Office of Public
Affairs. Although Mr. Deutsch was the point person on this issue (who admittedly
characterized National Public Radio as a “liberal” media market), the evidence leads us to
the conclusion that the National Public Radio interview denial was not his independent
action but, instead, actions taken in furtherance of directions given to him by senior


                                            40
leadership in the NASA Headquarters Office of Public Affairs. Particularly troublesome
to us is that when the denial of the National Public Radio interview became controversial,
Mr. Deutsch’s leadership distanced themselves from him on this issue by not taking
responsibility for any actions taken in connection with the interview denial. Instead,
Messrs. Mould and Acosta intimated that Mr. Deutsch had acted alone in denying the
request from National Public Radio, when, in fact, Mr. Deutsch was simply carrying out
their orders or intent.

       D. Alleged Funding and Budget Cuts at the Goddard Institute for
          Space Studies and for the Earth Science Program

In our interview with Dr. Hansen, we asked him if he ever felt somehow threatened
because of his media appearances and activities. He responded that aside from the “dire
consequences” comment by a Headquarters Public Affairs employee regarding
participation in the National Public Radio interview, his more pressing “threat” was in the
form of budget cuts (as a form of suppression). Specifically, he cited the
Administration’s Office of Management and Budget, who directed a 30 percent cut in
research and analysis funding for NASA’s Earth sciences, retroactive to the beginning of
FY 2006, and his concern as to its impact upon the Goddard Institute for Space Studies.
According to Dr. Hansen in January or February 2006, “everyone” associated with the
Goddard Institute for Space Studies was now financially squeezed.

We found no credible evidence that the Agency had used the budget as form of scientific
suppression. While the overall budget for the Science Mission Directorate’s Earth
Science Division declined, 46 the decline was associated with the Agency’s decision to
retire the Space Shuttle by 2010, complete the International Space Station, and transition
to the next-generation space vehicle in furtherance of the President’s Vision for Space
Exploration. To accomplish the goals, $2.2 billion (through 2010) was transferred from
the total Science Mission Directorate budget, which presumably had an impact on Earth
Science functions.

To determine how the transfer of funds decision directly affected the Goddard Institute
for Space Studies budget, we attempted to extrapolate from the Earth Science Division’s
budget that portion which was directly allocated to the Goddard Institute for Space
Studies. We were unable, however, to do so because, according to Goddard Space Flight
Center financial management personnel, “to break out the budget for GISS [Goddard
Institute for Space Studies] only would be just about impossible.” As a result, we
obtained from the official NASA financial management system expenditures made by the
Goddard Institute for Space Studies for FY 2003 through FY 2006. We found that




46
     An analysis conducted by our Office of Audits found that, after taking inflation into account, the Earth
     Science’s Division budget declined approximately 37 percent from FY 2001 to FY 2006.


                                                        41
expenditures steadily increased from $7.5 million during FY 2003 to $11.8 million in
FY 2006. 47

Additionally, the Deputy Director of the Goddard Institute for Space Studies (who is the
official-in-charge of its finances) stated that the Goddard Institute for Space Studies’
budget has not been influenced nor reduced by NASA management in any way due to
any sort of punishment, retaliation or reward for Goddard Institute for Space Studies’
media issues of the recent past or ever.

       E. NASA Headquarters Office of Public Affairs Delays Interview
          on the Warming Arctic Affecting Alaska’s Wildfires

Another allegation that the NASA Headquarters Office of Public Affairs had improperly
interfered with media access concerned a request made in 2004 by NBC Nightly News to
interview a NASA Goddard Space Flight Center scientist about warming Arctic climate
conditions contributing to fires in Alaska. According to a responding NASA
Headquarters Earth Science Public Affairs Officer, he/she selected an experienced
Goddard Space Flight Center scientist with the appropriate scientific knowledge and
interview skills. Pursuant to verbal NASA Headquarters Office of Public Affairs’ policy,
Messrs. Mahone and Acosta were notified. According to our sources, Mr. Mahone told
the Goddard Space Flight Center Public Affairs Officer to cancel the interview because it
was “not cleared.” Due to Mr. Mahone’s position within NASA, the Public Affairs
Officer assumed that the clearance to which Mr. Mahone referred must have been the
White House but the Public Affairs Officer had no direct recollection as to whether Mr.
Mahone actually mentioned the White House when he canceled the interview. We found
no facts corroborating the Public Affairs Officer’s belief that the White House—or any
other Administration official other than NASA Office of Public Affairs—was an
approval authority for the interview. (Mr. Mahone does not recall any telephone calls he
or anyone else made to the White House on this or any other related matter.)

Further discussion with Mr. Mahone was initiated by a NASA Headquarters Senior
Public Affairs Officer who believed that the selected scientist would represent NASA
well in the interview. The resulting discussions between this Public Affairs Officer and
Mr. Mahone caused several delays in the interview. The Public Affairs Officer, in an
effort to gain time to convince Mr. Mahone of the benefits of the interview, told NBC
Nightly News that the scientist was temporarily unavailable due to another commitment
(which the Public Affairs Officer knew was not true) and that the interview would have
to be delayed. Consequently, the scientist who was lined up for this interview told us that
he/she was extremely uncomfortable with the false representations made to NBC Nightly
News at that time because he/she was, in fact, available and did not want to be a part of
the Headquarters Office of Public Affairs’ trumped-up story.




47
     These expenditures cannot be directly correlated to a specific fiscal year appropriation, but rather several
     different fiscal year appropriations, because appropriations can be obligated over a 2-year period and
     expended over a 7-year period.


                                                        42
Mr. Mahone eventually conceded and the interview occurred after several hours delay.
The scientist stated, however, that he/she was so upset and distracted that the interview
did not go well. Later, the Headquarters Public Affairs Officer claimed that he/she was
verbally admonished by Mr. Mahone for setting up the interview.


VI. NASA’s Response to Allegations of Suppression, Censorship, and Denial of
    Media Access

       A. Initial Response

The first time senior NASA leadership learned of the extent of this suppression
controversy was through the media and through congressional inquiry. No formal
internal NASA processes were used by Science Mission Directorate scientists or officials
to complain, nor did officials from the Headquarters Office of Public Affairs ever
formally brief their leadership about the existence of a problem.

Senior NASA leadership stated that they first heard of the issue through the January 29,
2006, article in the New York Times 48 regarding NASA’s attempts to silence climate
change issues raised by Dr. Hansen. In response to the article, then-serving
U.S. Representative and House Committee on Science Chairperson Sherwood Boehlert
(R, NY) directed Mr. David Goldston, then Chief of Staff, House Committee on Science,
to conduct an inquiry. Mr. Goldston informed our investigators that he coordinated with
NASA Headquarters officials and learned that the Deputy Administrator, Ms. Shana
Dale, who joined NASA in November 2005, would lead NASA’s investigation into the
alleged suppression of Dr. Hansen, specifically the denial of the National Public Radio
interview.

Ms. Dale tasked some of the work to Dr. Edward Weiler, Director of Goddard Space
Flight Center, for the purpose of identifying allegations of science suppression at his
Center. In response, Dr. Weiler identified six examples of possible censorship and
suppression documented by Goddard Space Flight Center scientists. He then provided all
of the information regarding those allegations to NASA’s Chief of Staff, Mr. Paul
Morrell, who turned it over to our office for use in our investigation.

During this process, Ms. Dale met with Messrs. Mould and Acosta, who advised her that
Mr. Deutsch had handled the National Public Radio interview request. She later met with
Mr. Deutsch and although she could not recall any specifics of the meeting, she did recall
that Mr. Deutsch admitted no wrong-doing on his part or on the part of anyone else from
the Headquarters Office of Public Affairs in connection with the denial of the interview
request. Ultimately, Ms. Dale found that Mr. Deutsch had independently handled the
denial of the National Public Radio request to interview Dr. Hansen.




48
     Andrew C. Revkin, “Climate Expert Says NASA Tried to Silence Him,” New York Times, January 29,
     2006.


                                                   43
As detailed previously, we partially disagree with those findings. The information
garnered by our investigation suggests that while Mr. Deutsch was the Headquarters
Office of Public Affairs’ point man on this issue, the decision to deny the interview
request was most probably the result of a direct order from Mr. Deutsch’s supervisor,
Mr. Acosta, and was in keeping with the Headquarters Office of Public Affairs’ policies
in effect at that time. Congressional staff members also expressed to this office their
doubts that Mr. Deutsch acted alone and that they strongly believed that Messrs. Acosta
and Mould were not completely forthcoming in explaining to them their respective
actions concerning Dr. Hansen, both in regard to their role in the denial of the interview
request and in connection with their allegedly not receiving the December 20, 2005,
e-mail sent to them to confirm the oral instructions on how best to monitor Dr. Hansen.

   B. NASA Improves Its News Release and Media Access Policies

NASA’s management review described above further confirmed that existing Public
Affairs Office procedures were not effective or clear, concluding that policy guidance
was often verbal, ad hoc, inconsistent, and occasionally lead to episodes of confusion and
misunderstanding by the respective Field Center Offices of Public Affairs. Most NASA
climate change scientists and career civil service Public Affairs Officers who were
interviewed by this office strongly believed that some form of “censorship or
suppression” existed. They also expressed their belief that there were deficiencies within
the news release approval process. Regarding “process,” we concur that the lack of an
effective Standard Operating Procedure was a strong contributing factor to their
perception that climate change research was censored and suppressed.

The efforts to improve the situation were first brought to the public’s attention through a
statement by Dr. Michael Griffin, NASA Administrator, on February 3, 2006, titled, “A
Statement on Scientific Openness,” in which he expressed NASA’s commitment to open
scientific and technical inquiry and dialogue. Dr. Griffin described the job of the
Headquarters Office of Public Affairs as one to convey the work done at NASA—not to
alter, filter, or adjust the scientific information. He further wrote of the clarifications and
improvements being made to that office’s procedures.

Considering that changes to Government policy are often glacial, NASA moved
relatively quickly in this matter. On February 14, 2006, Dr. Griffin wrote the House
Committee on Science and other congressional leaders to express NASA’s commitment
to correct the problems within the Headquarters Office of Public Affairs. Dr. Griffin
reported that he would not tolerate any policy or action whereby the Office of Public
Affairs filtered, altered, edited, or censored scientific findings and facts. Dr. Griffin also
stated that NASA was required to provide for the widest practicable and appropriate
dissemination of information concerning its activities and the results thereof. Dr. Griffin
acknowledged that the National Public Radio interview request of Dr. Hansen was
inappropriately declined and constituted an action contrary to NASA policy. He further
stated that NASA would review existing policies and identify ways to improve them and
develop practices to maintain NASA’s commitment to full and open discourse on
scientific, technical, and safety issues.



                                              44
On March 30, 2006, Dr. Griffin sent an e-mail to the NASA staff that presented his
establishment of NASA’s “Policy on the Release of Information to News and Information
Media.” Dr. Griffin stated that the policy provided clear guidelines for working with the
Office of Public Affairs and unambiguously states the parameters for the Office of Public
Affairs. The policy guarantees that NASA scientists may communicate their conclusions
to the media but requires that they draw a distinction between professional conclusions
and personal views.

The new policy was published in the Code of Federal Regulations at 14 C.F.R. Part 1213.
The policy calls for the continued “widest practicable and appropriate dissemination of
information concerning [NASA] activities and the results thereof.” Specifically, the new
policy focuses on the dissemination of public information. Section 1213.100 defines
public information as information in any form provided to the news and information
media, especially information that has the potential to generate significant media or
public interest or inquiry. The policy requires that all public information be coordinated
through the appropriate Headquarters offices, including review by the appropriate
Mission Directorate Associate Administrator and Mission Support Office head, or their
designees, to ensure scientific, technical, and programmatic accuracy, and review and
editing by the Assistant Administrator for Public Affairs or his/her staff to ensure that
public information products are well written and appropriate for the intended audience. 49
The policy then states that “such editing shall not change scientific or technical data or
the meaning of programmatic content.” 50 It also requires scientific and technical
information from or about Agency programs and projects to be accurate and unfiltered. 51
The policy also sets forth a dispute resolution process to ensure that all parties involved
have a route of appeal in communicating scientific and technical information to the
public. 52 Responsibilities and methods of coordination appear to be clearly established in
the policy to clarify and improve the communication process.

The new policy also discusses the process for interviews with NASA personnel. 53
Section 1213.105 of the Code of Federal Regulations permits NASA employees to speak


49
   14 C.F.R. § 1213.104 (2007).
50
   14 C.F.R. § 1213.103 (2007).
51
   14 C.F.R. § 1213.102 (2007).
52
   14 C.F.R. § 1213.104 (2007).
53
   NASA also developed two regulations regarding personnel and public speaking engagements to further
   the Space Act requirement of public dissemination of information: NPR 1385.1, “Public Appearances of
   NASA Astronauts and other Personnel with Change 1,” January 7, 2000, and NPD 1385.2G, “Public
   Appearances of NASA Astronauts and Other NASA Personnel,” November 24, 1999. The NASA policy
   is meant to encourage the acceptance of public speaking engagements by NASA personnel to ensure the
   widest dissemination of information about NASA and its programs. Even though the intent of the policy
   is to encourage personnel to accept public speaking engagements, there are limitations to the policy. The
   NPR states public appearances are encouraged if:
     •   The appearance is in the best interest of NASA and the Government and supports the Agency’s
         goals and reflects the Administration’s priorities.
     •   It can be accommodated without major interference to the official NASA duties of the intended
         speaker.
     •   The appearance will have no adverse impact on program activities.


                                                    45
to the media and the public about their work. The policy stipulates that the employee is
required to notify their immediate supervisor and coordinate with their Office of Public
Affairs in advance of interviews whenever possible, or immediately thereafter.

The employee is encouraged, to the maximum extent practicable, to have a Public Affairs
Officer present during an interview; journalists are permitted access to NASA officials
they seek to interview, provided those NASA officials agree to be interviewed; and
NASA scientists may draw conclusions to the media. The policy also states that NASA
employees who present personal views outside their official area of expertise or
responsibility must make clear that they are presenting their personal views.

The new policy became effective on August 24, 2006, and is currently the policy NASA
follows in regard to the release of information to news and information media.

In October 2006, under Mr. Mould’s leadership, the NASA Headquarters Office of
Public Affairs developed a new Standard Operating Procedure titled “Operating
Procedures for Release of NASA Public Information.” The Standard Operating
Procedure outlines the procedures for Headquarters and Field Center Public Affairs
Officers regarding the release of public information. It was written to follow the NASA
policy that the NASA Administrator had previously released and codified in the Code of
Federal Regulations.

Informal congressional staff (House) response to these changes appeared positive. Our
interview with former staff members of the House Committee on Science revealed a
consensus that they agreed with NASA’s emphasis on moving forward and were satisfied
with the new policy and this Office’s maintained vigilance with NASA to ensure the new
actions were implemented and followed. We have not, nor has the Committee staff, been
made aware 54 of any complaints of suppression at NASA following the new policy
implementation. The Committee’s feedback mirrored ours: the new policy was being
well received by the entire NASA community.




    •    It will not exploit NASA or the intended speaker for fundraising, sponsorship, endorsement, or
         financial assistance.
    •    The appearance does not unlawfully segregate or exclude on the basis of race, age, color, religion,
         sex, national origin, sexual orientation, or disability.
    •    It does not violate the standards of ethical conduct for employees of the Executive Branch
         prohibiting Federal personnel from accepting an honorarium of additional compensation for
         making any public appearance.
   The public appearance must meet these criteria in order for approval from NASA. Each NASA Center
   Public Affairs Office is directed to designate a Speakers Coordinator who will receive and process
   requests for speakers from his or her Center. The Speaker Coordinator is to determine if the engagement
   is within the Center’s geographical area and, if not, forward the request to the Center that is responsible
   for the requester’s geographic location. An exception may be made when the invitation specifies a
   named individual at the Center, or subject matter which is in the program expertise of the Center. The
   Coordinator will provide a reply to the requester of the Agency’s acceptance or declination of the
   invitation for the NASA speaker.
54
   Current through 2007.


                                                     46
External to Government, feedback also included a report from the Union of Concerned
Scientists and the Government Accountability Project, which conducted a joint study into
allegations that Federal climate change research was being compromised due to political
interference and media favoritism. The study, “Atmosphere of Pressure,” concluded that
there is a need for strong policies to protect the integrity of science and the flow of
scientific information. In regard to the new NASA policies and processes, the study
states, “While imperfect, the new NASA media policy stands as a model for the type of
action other Federal agencies should take in reforming their media policies.”

In further evidence of the effectiveness of the new policy, during the course of this
investigation, as referenced above, a communication was sent to all NASA employees
and contractors requesting that they submit any complaints or information they may have
concerning suppression or censorship. As a result of this request, only 11 responses were
received. None pertained to the current policies.

In summary, the efforts of the NASA Administrator in March 2006 to develop a clear
policy regarding the release of public information and the subsequent development of a
Headquarters Office of Public Affairs Standard Operating Procedure in October 2006
regarding the release of public information appear to represent a practical and effective
approach to resolving the conflict between the NASA Headquarters Office of Public
Affairs and NASA’s scientific community.


VII. Conclusion

After carefully reviewing the relevant facts and circumstances in this matter, we conclude
that officials in the NASA Headquarters Office of Public Affairs did, in fact, manage the
release of information concerning climate change in a manner that reduced, marginalized,
and mischaracterized the scientific information within the particular media over which
that office had control. Further, on at least one occasion, the Headquarters Office of
Public Affairs denied media access to a NASA scientist, Dr. Hansen, due, in part, to that
office’s concern that Dr. Hansen would not limit his statements to science but would,
instead, entertain a policy discussion on the issue of climate change.

We also conclude that inappropriate political posturing or advantage was the proximate
cause in at least some of these actions. While we did not find that all Headquarters
Office of Public Affairs’ adjustments to climate change news releases were politically
motivated, the preponderance of the evidence does, however, point to politics
inextricably interwoven into the Headquarters Office of Public Affairs’ news
dissemination process at that time. Climate change scientists and affected career Public
Affairs Officers believed that, as a result of their proposed media releases being altered,
delayed, or converted to other (lesser) media, their work was in fact compromised for
political advantage—especially when it conflicted with the Administration’s policies or
priorities. We uncovered no direct evidence to substantiate their beliefs, but the
circumstantial evidence (to include the apparent mendacity of one or more senior Public
Affairs officials) gives far more credence to the position of the climate change scientists
than it does to the argument set forth by NASA Headquarters Office of Public Affairs


                                             47
(that the changes and delays were due to the heavy volume and poor quality of the news
releases drafted by the scientists). We maintain this opinion even while recognizing that
some of the complaining scientists may have had their own political or pecuniary agendas
as well.

We also note that the NASA Headquarters Office of Public Affairs’ unilateral actions in
editing or downgrading press releases or denying media access on a known controversial
topic—and doing so without collaborating with the submitting scientists (as then required
by NASA policy)—minimizes, in our view, the persuasive weight of their arguments as
to volume or quality as the cause. Moreover, their failure to adhere to a prescribed
process—where the goal was transparency and “consensus”—resulted in complaints,
negative media attention, Congressional oversight, and, ultimately, this investigation.

The actions of the NASA Headquarters Office of Public Affairs also had an impact on
many levels of Agency operations. News releases in the areas of climate change suffered
from inaccuracy, factual insufficiency, and scientific dilution. Some scientists claimed to
have self-censored; others simply gave up. Worse, trust was lost, at least temporarily,
between an Agency and some of its key employees and perhaps the public it serves.
Congressional relations, at least at the staff level, were also strained. Finally, these
allegations proved to be an unnecessary but significant distraction to an Agency that was
otherwise fully engaged in other areas of science, exploration, aeronautics, and space
operations, each with its own breathless operational pace, in which safety was paramount.
Certainly, all those actions and effects were inconsistent with the purpose and intent of
the Space Act and other NASA regulations requiring the widest practicable and
appropriate dissemination of information concerning NASA’s activities and research,
especially on a topic that has worldwide scientific interest. In sum, when it pertains to
dissemination of the Nation’s hard science, none of this course of conduct was in the
public’s best interest. Furthermore, to the extent that these allegations transpired for
more than 1 year, the Agency as a whole (particularly the Science Mission Directorate
and the Office of Public Affairs) bears responsibility for not appropriately elevating these
matters to senior management for resolution.

Also, the speed with which NASA changed its policies is evidence of the importance the
Agency attributed to the real or perceived political interference problems within the
Headquarters Office of Public Affairs and climate change science communities. Once
the conflict between the scientists and the Headquarters Office of Public Affairs became
a focus of the leadership within the Office of the Administrator, aggressive steps were
taken to study the problem and take corrective action. The revised policies clearly
improved NASA’s processes pertaining to their public dissemination of science and
science-related information; and their yet-to-be-tested dispute resolution mechanism
between the science and Public Affairs communities seems to be a significant step in
transparency and open communications. So far, the new policies have been well received
by the various constituencies affected, and we have yet to learn of a complaint since their
implementation.




                                            48
Appendix A
Appendix A
 Page 1 of 1
Appendix B
Appendix B
Page 1 of 1
Appendix C
E-Mail Alleging Reduction in Climate-Related News Releases




                                                     Appendix C
                                                     Page 1 of 5
Appendix C
Page 2 of 5
Appendix C
Page 3 of 5
Appendix C
Page 4 of 5
Appendix C
Page 5 of 5
Appendix D
Management’s Comments




                        Appendix D
                         Page 1 of 8
Appendix D
 Page 2 of 8
Appendix D
 Page 3 of 8
Appendix D
 Page 4 of 8
Appendix D
 Page 5 of 8
Appendix D
 Page 6 of 8
Appendix D
 Page 7 of 8
Appendix D
 Page 8 of 8
Appendix E
                      NASA Office of Inspector General
                    Evaluation of Management’s Comments

Background. On March 7, 2008, the NASA Office of Inspector General submitted a
Draft “Investigative Summary Regarding Allegations that NASA Suppressed Climate
Change Science and Denied Media Access to Dr. James E. Hansen, a NASA Scientist”
(“Investigative Summary” or “Summary”) to the NASA Administrator to give the
Agency an opportunity to comment. Our purpose in providing the Agency with an
opportunity to comment on the Summary was to gain assurance there were not important
facts or other considerations we may have failed to consider in our investigation. On
April 18, 2008, NASA’s Deputy General Counsel (OGC) provided us comments on our
Draft; those comments are attached at Appendix D.

The Agency’s comments do not rebut or specifically challenge the vast majority of the
factual findings, analysis, or conclusions of the Investigative Summary. The Agency first
cites its agreement with the Investigative Summary on six findings before raising three
points of contention. These points question the Office of Inspector General’s (OIG)
reading of the Space Act, the evidentiary basis for the OIG’s conclusions, and the OIG’s
“unjust references to the character of senior PAO managers.” While we believe these
matters were sufficiently addressed in our Investigative Summary, we will discuss them
in greater detail below. To summarize those details, (1) we believe the Agency’s
interpretation of the Space Act is an erosion of the Act’s express mandate to disseminate
information—which was fundamental to NASA’s enabling legislation; (2) we believe the
information contained in the Investigative Summary is sufficiently supported by the
evidence; allegations were not accepted as conclusive; and further, the sole example the
Agency uses to extrapolate or fashion an argument that all our other findings are
questionable is also well supported by the facts; and (3) while the Investigative Summary
was primarily concerned with issues of suppression and denial of media access, the
conduct of one or more senior Public Affairs Officials warranted specific reference as the
conduct was, to us, indicative of a consciousness on the part of those official(s) that their
actions were inappropriate. Moreover, their actions to frustrate this office’s and others’
inquiries into the facts of this matter were sufficiently material to warrant specific
reference. Nonetheless, in light of the Agency’s response, after further consideration, we
changed some parts of the Summary and provided further elaboration of relevant matters
here. Material changes are detailed at the end of this evaluation.


1. NASA’s Objections to NASA OIG’s Space Act Analysis

The Agency mischaracterizes our discussion of the Space Act as it was applied to the
facts of this case. Our Investigative Summary does not cite the Space Act as a
“restriction” on NASA authority, but rather as a mandate that requires NASA to
disseminate information to the widest practicable and appropriate extent. Further, we do
not state that “NASA is statutorily barred from exercising discretion.” Our Investigative
Summary recognizes the Agency’s discretion but concludes that, under the facts and

                                                                                Appendix E
                                                                                Page 1 of 16
circumstances of this case, the Agency’s exercise of discretion was “inconsistent” with
the Space Act.

We note that the Space Act’s operative language is cast in terms of a requirement for
NASA to widely disseminate its activities and results. The Space Act uses the term
“shall” in directing the Agency to provide for the widest practicable and appropriate
dissemination of information. This requirement is only conditioned by the terms
“practicable and appropriate.” To clarify that this requirement extends to public affairs
functions, the Agency’s implementing regulations, “Release of Information to News and
Information Media,” published in Part 1213 of Title 14 of the Code of Federal
Regulations, states that, “Consistent with NASA statutory responsibility, NASA will
‘provide for the widest practicable and appropriate dissemination of information
concerning its activities and the results thereof.’” (Emphasis added.)

The Agency’s comments, however, state that the Space Act vests it with the “maximum
possible discretion . . . to determine what is appropriate” and once that determination is
made, they have unconstrained dissemination decision-making authority to do anything
“as long as [it is] not prohibited.” Implicit in this position is that the NASA OIG is
wrong to question the activities addressed in this Investigative Summary with reference
to the Space Act because the Agency has unbridled discretion—as long as dissemination
decisions made are not specifically prohibited by law. We reject the position that the
Space Act’s dissemination provision is simply a “grant of authority” to take action;
instead, we believe it constitutes a direction to take action.

As detailed in our Summary, we agree that the Agency has discretion as regards the
execution of the statutory mandate. This is particularly so in the conduct of Office of
Public Affairs activities when NASA is already publishing through normal research
channels the science found in its research. As restated in our Investigative Summary, we
do not believe that the Agency’s statutory mandate or regulatory commitments, with
specific reference to its public affairs functions, allow for the intentional distortion of
information or science in press releases the Agency—in its exercise of discretion—has
elected to issue. Likewise, purposefully withholding or delaying meritorious releases to
ostensibly meet political objectives would also appear to stretch the mandate to provide
“the widest practicable and appropriate dissemination of information concerning its
activities and results thereof.” In our view, the exercise of the Agency’s discretion in
disseminating information under the mandate of the Space Act and Agency regulations is
not beyond question or oversight, and we remain convinced that the actions identified in
the Investigative Summary as being inconsistent with the Space Act’s requirements were,
in fact, just that.




                                                                              Appendix E
                                                                              Page 2 of 16
2. NASA’s Contention that NASA OIG’s Investigative Summary Accepted
Allegations as Evidence, as Illustrated in Analysis of News Release 06-009 –
“NASA’s Spitzer Finds Possible Comet Dust Around Dead Star”

The Agency’s comments (Appendix D, page 3) cite a portion of the evidence regarding
the “Spitzer” news release and concludes as follows:

   No political appointee was involved, the scientist agreed with the objection of the career Public
   Affairs employee, the press release involved astronomy rather than climate change, and the
   results of the observation were accurately portrayed. Despite our knowledge that the OIG was
   in possession of these facts, none are mentioned in the Report. An example such as this, where
   contemporaneous documentary evidence of events was disregarded in favor of unsubstantiated
   statements made long after the fact, raise questions about the other findings of the Report.

The Agency comments address only the initial aspects of the Spitzer release. In addition
to the e-mails quoted by the Agency establishing a consensus that the first draft of the
release was “alarmist,” we considered numerous other types and forms of evidence, to
include witnesses, documents, other e-mails, and a conference presentation made by the
contributing scientist. This additional evidence reflects that the primary problems with
the “Spitzer” release occurred after the exchange of e-mails referenced by the Agency.

Following the initial exchange of e-mails reflecting the “alarmist” consensus, a re-
worked version of the draft press release was generated. It stated (in part):

       If any planets had once orbited in these dead systems, the red giants would have engulfed at least
       the inner ones. All that would be left is outer planets and an orbiting icy outpost of comets. In
       five billion years or so, when the sun and earth are twice our present age, our own solar system
       will eventually undergo a similar process.

The final release stated:

       If any planets orbited in these systems, the red giants would have engulfed at least the inner ones.
       Only distant outer planets and an orbiting icy outpost of comets would have survived.

The connection between the observations of the Spitzer Space Telescope and our solar
system were removed.

This office’s interview with the field Public Affairs Office representative at NASA’s Jet
Propulsion Laboratory revealed that he/she disagreed with the NASA Headquarters
Office of Public Affairs Officer’s desire to delete all reference to our solar system.
He/she opined that the press release was unduly censored but that he/she had to concur
with the changes because it was the only way that the release would be approved due to
the “culture of censorship” at NASA Headquarters Office of Public Affairs.

The NASA Headquarters Public Affairs Officer stated he/she was directed by the NASA
Headquarters Newsroom Chief to not put anything in a press release that would scare
people. The NASA Headquarters Public Affairs Officer also told us that he/she did
everything he/she could to satisfy Dean Acosta and the Newsroom Chief and that he/she
edited the press releases in order to get them approved; this person said that getting the

                                                                                             Appendix E
                                                                                             Page 3 of 16
release to the public was achieving his/her mission of getting a final press release out
despite the fact that language or content were kept from the public to satisfy his/her
supervisors.

The Spitzer program scientist told this office that he/she agreed that the scientist’s
original draft had alarmist comments and needed to be edited. He/She stated, however,
that he/she felt it was “censorship” on the part of NASA Headquarters Office of Public
Affairs to remove all mention of the parallel relationship between the solar system that
was the focus of the study and our own solar system. After reviewing the reworked
release, the program scientist states in an e-mail message to NASA’s Jet Propulsion
Laboratory Public Affairs Office representative, “I noticed that the Sun isn’t mentioned.
There’s an underlying issue that I’ve got to understand. The censorship is crazy.”
Neither the program scientist nor the scientist that conducted the study ever received a
final draft copy of the release before it went out.

Our interview of the scientist who conducted the study reflected his/her belief that NASA
Headquarters Office of Public Affairs removed key information and compromised the
purpose of the release. Specifically, his/her purpose in submitting the press release was
to show the public the parallels between the two solar systems. Consequently, the
removal of all reference to our solar system took away the primary relevance of the
release. Further, the scientist stated that during the American Astronomical Society
(AAS) conference that was held shortly after the release, he/she made a presentation
concerning the Spitzer study. The presentation was entitled, “Spitzer Sees Ghost of Solar
System’s Future,” and focused on the parallels between our own solar system and the
findings from the study. During the presentation several reporters commented that
his/her presentation was different from the news release and they asked if NASA
Headquarters had changed his/her story. According to the scientist, he/she avoided
responding to those questions by “talking around” the subject. The reporters told him/her
that they were glad they came to the presentation because now they had something to
write about. He/She advised our investigators that he/she was put into this uncomfortable
position because of his/her trying to cover the “mistakes” made by NASA Headquarters
Office of Public Affairs.

We also reviewed evidence suggesting that senior NASA management had concerns with
the NASA Headquarters Office of Public Affairs’ course of conduct regarding this
particular Spitzer press release. One of the documents reviewed by this office was an
e-mail from NASA Administrator Michael Griffin to the Associate Administrator,
Science Mission Directorate, dated February 23, 2006. This e-mail was in reference to
Mr. Griffin receiving (via the Associate Administrator for the Science Mission
Directorate) a list of political interference allegations from New York Times journalist
Andrew Revkin. One of the issues raised by Mr. Revkin specifically related to the
changing of this Spitzer press release and the problems those changes caused to the
Spitzer scientist at the AAS conference. In the e-mail, Mr. Griffin stated, “This sickens
me. We need to fix. I hope the AAS meeting incident did not occur on our watch? The
other incidents were earlier, but we still need to fix.”



                                                                                Appendix E
                                                                                Page 4 of 16
Other Spitzer-related documentation reviewed by this office was an e-mail from the
Associate Director, Astrophysics Science Division, Goddard Space Flight Center, to the
Chief Scientist for the Science Mission Directorate, dated January 29, 2006. This e-mail
appeared to confirm the salient facts, by stating,

       Summary and analysis of communications regarding the text of the release about
       Spitzer observations of an evolved solar system. The observations address a possible
       dead solar system and parallels can be drawn that predict what might happen to our
       solar system (predictions from theory). However as communications progressed
       between Headquarters and Spitzer PAOs any reference to our sun were either deleted
       or significantly water [sic] down. Spitzer PAO admitted that the first quote may have
       been “over the top” so they changed it. But the parallels drawn to our solar system
       were removed in the final HQ version.

A February 13, 2006, point paper drafted by the NASA Chief of Staff confirmed there
were significant changes made to the press release but that there was no political
interference due to the fact that only career civil servants were involved in the process.
(Our investigation, however, explored why in this instance and in many others the career
assigned civil servants may have made the changes.)

We agree that this example does not show direct political interference; instead, we
believe this example reflects dissembling/obscurantism, self censorship and poor
coordination—and it parenthetically depicts the indirect influence that political
appointees had over the process. The career Headquarters Office of Public Affairs
employees, in regard to this issue and in general, spoke about the guidance given to them
by the political appointees as to what would be considered an acceptable press release
and that they acted upon that direction. As stated by the Headquarters Public Affairs
Officer who handled this particular release, the changes made were not caused by benign
oversight or scrivener’s error; the changes were deliberately made because it was the only
way to get the press release approved by Mr. Acosta.

Similar to the specific comments made by the Agency concerning the lack of support for
this office’s findings concerning the “Spitzer” press release, it should be recognized that
the Investigative Summary provided to the Agency for comment is just that—a
Summary.

As we did in the Spitzer release discussed above, our summarizations did not adopt
allegations as substantiated facts. Of course, administrative investigations by their very
nature will include disputed facts, and, while we have confidence in our work, we do not
presume that our findings and conclusions are infallible. Nevertheless, the facts in the
Investigative Summary appeared preponderantly likely, that is, more likely than not, and
we rejected allegations that couldn’t be supported by that standard. Contrary to the
assertion, implicit in the Agency’s response, that we received allegations and accepted
them as fact, we only presented those allegations that we found to be, as the Investigative
Summary states, substantiated based on the evidence we developed and applied to an
evidentiary standard.



                                                                                        Appendix E
                                                                                        Page 5 of 16
For example, during the course of our investigation, this office received a substantial
number of allegations involving specific matters such as individual press releases being
delayed, altered, or cancelled as well as allegations involving more general issues such as
the following:

      •    Allegation(s) of “Censorship” of Climate Change Science insomuch as NASA
           changed its Mission Statement by eliminating the words “to understand and
           protect our home planet.”

      •    Allegation(s) that in October 2004, Messrs. Mahone and Acosta directed that
           climate change press releases “must be limited due to the upcoming Presidential
           election.” While the Investigative Summary details only one instance of a press
           conference being delayed until after the 2004 Presidential election (Investigative
           Summary pp. 25–27), this office also received allegations that in October 2004,
           Messrs. Mahone and Acosta directed staff members to reduce the number of
           climate change press releases until the election was over.

      •    Allegation(s) that Mr. Acosta ordered his staff to have all climate change draft
           releases reviewed by him and that he instructed there not to be “any electronic
           paper trail” in connection with his review, and that NASA scientists were
           prohibited to speak to the media concerning the release of the movie, “The Day
           After Tomorrow.”

While we found little to no evidence that the facts underlying these allegations were
false, we elected not to include them in our Investigative Summary because they were not
supported strongly enough through documentation or by corroborating witnesses. Said
another way, if a determination could not be made concerning the factual sufficiency of
an allegation, then that allegation was not published in the Investigative Summary.
Ironically, in many instances, the lack of documentation concerning the press releases
was due to the fact that the routing sheets that would have documented the changes made
to the drafts in question were not available—in line with an allegation that Mr. Acosta
directed that the climate change drafts were to come directly to him and not through the
normal approval chain. 1

On pages 1 and 3 of its comments (Appendix D), the Agency points to the limited
number of instances of censorship/suppression found by this office. While true that the
Investigative Summary highlights only one instance of an improperly delayed press
release and press conference (pp. 25–27), we received allegations concerning at least six



1
    OIG investigators made three separate requests for routing sheets: the first two were for all routing sheets
    related to climate change press releases and the third request was for the routing sheets connected to
    specific press releases about which allegations had been raised. There was no response to the first
    request. The second request garnered 20 routing sheets covering a period of time from May 2005
    through December 2006 (no sheets were available for the period of time of April 2004 through April
    2005), and no documents were obtained as a result of the third request.


                                                                                                 Appendix E
                                                                                                 Page 6 of 16
others being delayed. Again, these were not included in the Investigative Summary
because the documentation usually associated with the approval of such releases was not
available.

In summary, this office devoted considerable resources and analysis (to include a
standard of proof) on distinguishing between allegations and substantiated facts. While
we received more substantive allegations than were actually reflected in our Investigative
Summary, we strove only to reflect those instances (such as the Spitzer news release) that
were supportable by the evidentiary standards discussed in the Investigative Summary.


3. Characterization of Agency Public Affairs Officials

On page 3 of their comments, the Agency states:

       The Report is strewn with unjust references to the character of senior PAO managers
       [footnote concerning the use of the term “mendacity” to describe their conduct was inserted
       here]. There is little support, and less need, for such characterizations. The most that can
       be responsibly concluded from the evidence is that people disagree about what was said in
       certain meetings, over who received what emails, and who was involved in certain
       conversations.

       For example, with respect to Mr. Mould, the Assistant Administrator for Public Affairs,
       there appear to be two principal reasons for the OIG’s conclusions. There was the email
       that was intended to document the conversation between PAO and the Goddard Institute for
       Space Studies (GISS) concerning coordinating releases to news media, ([Draft]Report, p.
       44) [Investigative Summary p. 37–38], and there was the question of whether George
       Deutsch acted alone or under orders in denying the NPR request for the interview with
       Dr. Hansen. ([Draft] Report, p. 47) [Investigative Summary pp. 40-41].

In specific regard to the e-mail in question, the Agency states:

       The OIG search of Mr. Mould’s computer revealed no evidence that he received the email,
       and it is not reasonable to conclude, as the OIG Report does, that he received it anyway—
       that it was not, for example, diverted or lost in transmission—and that he remembered
       receiving it, and that he lied about it.

To properly respond to the Agency’s comments that this office unjustly characterized
senior Public Affairs Officials, Mr. Mould in particular, and that there is little support for
our conclusions, a detailed outline of the relevant evidence gathered (in addition to that
contained in the Investigative Summary) is described below.

First, by comparison with the other senior Public Affairs Officials, the evidence suggests
that Mr. Mould was a relatively minor participant in these matters. He assumed his
duties well after many of these events had occurred and appeared to have inherited many
of the prior practices and personnel. Nevertheless, he was in charge (and therefore
responsible) during some of the instances described in the Investigative Summary.
Further, on discrete occasions, he was a participant. Finally, as we noted in the
Investigative Summary, Mr. Mould took corrective policy actions after the practices


                                                                                          Appendix E
                                                                                          Page 7 of 16
between his office and the climate change science community became controversial with
the media, Congress, and senior NASA leadership.

With regard to the “e-mail in question,” the evidence gathered by this office in
connection with that e-mail extends well beyond the forensic examination conducted on
Mr. Mould’s computers. Our evidence includes several interviews (including two
interviews of Mr. Mould) concerning the e-mail itself as well as to the circumstances
leading up to the teleconferences, their content, and the oral and written reactions of the
participants.

As mentioned in the Investigative Summary (pp. 36-37), a teleconference was conducted
on December 15, 2005, involving Messrs. Mould and Acosta, and four other
Headquarters and field Public Affairs Office officials. NASA OIG Special Agents
interviewed all six participants to this teleconference. Four of the participants agreed as
to the subject of the teleconference. These interviews also were corroborated by the
contemporaneous notes taken by one of the participants that were obtained by this office.
Four participants agree that the teleconference was the vehicle utilized by Messrs. Mould
and Acosta to outline the “right of first refusal” policy in regard to media access as well
as to direct that all Goddard Institute for Space Studies postings to its Web site needed
approval from senior Science Mission Directorate officials and the Headquarters Office
of Public Affairs. Messrs. Mould and Acosta disagree with the other four participants
(and the contemporaneous notes taken by one of them) as they state the teleconference
was simply a reaffirmation of the “heads up” policy already in place.

This office conducted multiple interviews with the Public Affairs Chief of the Goddard
Space Flight Center. The evidence gathered from these interviews revealed that on
December 16, 2005, the Public Affairs Chief of the Goddard Space Flight Center was
directed to contact Mr. Acosta. He did so. Mr. Mould was also a participant in the
teleconference that occurred that day, although it was Mr. Acosta that dominated the
conversation. According to the Public Affairs Chief, Mr. Acosta advised that the “heads
up” policy had changed and that the Headquarters Office of Public Affairs now wanted to
know everything that Dr. Hansen was doing (presumably in terms of dealing with the
media).

On this same date, the Goddard Space Flight Center Public Affairs Chief contacted the
Goddard Institute for Space Studies Public Affairs Coordinator for the purpose of
comparing notes on the two teleconferences. As a result, on December 19, 2005, the
Goddard Public Affairs Chief sent an e-mail to Dr. Hansen’s supervisors notifying them
of the Headquarters Office of Public Affairs’ desire to have local Public Affairs Offices
“monitor” Dr. Hansen, but the Chief did not believe that this was their responsibility.

As described in the Investigative Summary (pp. 37–38), on December 20, 2005,
Goddard’s Public Affairs Chief sent an e-mail to Messrs. Mould and Acosta, with a copy
to the Goddard Institute for Space Studies Public Affairs Coordinator, to memorialize the
directions given during the teleconferences and to get written confirmation of these new
directives. This e-mail was based on a draft constructed by the Goddard Institute for

                                                                                Appendix E
                                                                                Page 8 of 16
Space Studies Public Affairs Coordinator (which was based on the notes taken during the
first teleconference).

Despite statements to the contrary that Messrs. Mould and Acosta made either singularly
or collectively to NASA senior leadership and Congressional staff—where they denied
receipt of this e-mail—Mr. Acosta (or someone operating his equipment) received it.
Our forensic examination of his computer reflects that he received it at 2:19 p.m. on
December 20, 2005. Shortly thereafter, he forwarded the e-mail to the Deputy Press
Secretary (also a participant in the December 15, 2005, teleconference) with the
comment, “Take a look at this and let me know what you think?” At 2:55 p.m., the
Deputy Press Secretary responded with some rewording of section 2 of the original e-
mail. So, while two people deny receiving the e-mail (and, as will be pointed out later,
they also deny the accuracy of its description of events), the evidence shows that it was
received by one of them. Even accepting the remote possibility that the properly
addressed e-mail was not delivered to Mr. Mould’s account, or that he deleted it without
reviewing it, we question whether it is reasonable to believe that Mr. Acosta (who was
Mr. Mould’s subordinate and whose computer clearly received and forwarded the e-mail,
and who shared a contiguous office suite with Mr. Mould), would never have discussed
this e-mail with Mr. Mould—especially given the seriousness of the issues discussed.

But not only do Messrs. Mould and Acosta deny receiving the e-mail, they also deny the
accuracy of its portrayal of the teleconferences. Again, interviews of both senior NASA
management and congressional staff reveal that Messrs. Mould and Acosta claimed that
the teleconferences were nothing more than a reiteration of the existing “heads up” policy
at the NASA Headquarters Office of Public Affairs. After OIG interviews of all of the
participants of the teleconferences, Messrs. Mould and Acosta were alone in that
assessment. Included in those participants was Mr. Deutsch (another political appointee)
and the Deputy Press Secretary to whom Mr. Acosta forwarded the subject e-mail. The
interview of the Deputy revealed that the e-mail was an accurate depiction of the first
teleconference and that this was the reason why, when asked for comments by
Mr. Acosta, his changes to the content of the e-mail were minor.

In terms of possible “contemporaneous” evidence in support of Mr. Mould’s position, we
interviewed Mr. Mould on March 5, 2008, wherein he provided investigators with a copy
of a “Memorandum for the File,” dated December 15, 2005, which we then considered as
part of our investigation. According to Mr. Mould, he produced this memorandum from
the notes he took of the teleconference shortly after the teleconference took place. This
memorandum supports Messrs. Mould and Acosta’s contention that the purpose of the
teleconference was to remind the Goddard Institute for Space Studies Public Affairs
Coordinator about the need to enforce the “heads-up” policy. Mr. Mould stated that he
created this document on his home computer and then transferred the document to his
work computer via a memory stick. Mr. Mould was non-specific as to when the
document was created and transferred to his work computer. During the March 5, 2008,
interview, one of the NASA OIG Special Agents reminded Mr. Mould that he had been
previously interviewed (on September 11, 2007) in connection with this case and asked
why Mr. Mould was just now providing this Memorandum after our previous requests for

                                                                             Appendix E
                                                                             Page 9 of 16
information. He provided no response as to why he was producing this Memorandum
now, or when he wrote it, or whether he gave it to anyone up until now.

Our investigation also uncovered that on February 2, 2006, the House Committee on
Science and Technology sent a retyped copy 2 of the substance of the e-mail at issue to
NASA’s Assistant Administrator for Legislative and Intergovernmental Affairs. This
was approximately 45 days after the original e-mail was sent. The e-mail was then
forwarded to Messrs. Mould and Acosta and to the Chief of Strategic Communications.
In responding to the e-mail from the Assistant Administrator for Legislative and
Intergovernmental Affairs, we note that Mr. Mould and Mr. Acosta appear to have
coordinated their response. On February 2, 2006, both Mr. Mould and Mr. Acosta
replied within 30 seconds of each other and denied receiving the original e-mail. In his
response, Mr. Mould states, “I have never seen this document before. I would have
remembered it.”

The interview of the Assistant Administrator for Legislative and Intergovernmental
Affairs revealed that two meetings ensued as a result of the re-typed e-mail being
received from congressional staff. The participants of the first meeting were the
Assistant Administrator for Legislative and Intergovernmental Affairs, Messrs. Mould
and Acosta, the Deputy Administrator, and the Chief of Staff. The second meeting
included these same participants in addition to two congressional staff members and the
NASA Administrator. According to the Assistant Administrator for Legislative and
Intergovernmental Affairs, during these meetings, both Mr. Mould and Mr. Acosta
denied receiving the December 20, 2005, e-mail and its contents.

The investigation disclosed that, at some point after receiving a copy of the questioned
e-mail from the Assistant Administrator for Legislative and Intergovernmental Affairs,
Messrs. Mould and Acosta met alone with the Deputy Press Secretary to discuss the
questioned e-mail. (The Deputy Press Secretary could not recall the date of the meeting
and Mr. Mould could not recall the specific meeting but stated that it is possible that he
was involved in a conversation with Mr. Acosta and the Deputy Press Secretary.)

We found this meeting with the Deputy Press Secretary to be interesting in that the
Deputy Press Secretary was not on the recipient list for the original e-mail. According to
the Deputy Press Secretary, Mr. Mould and Mr. Acosta commented at that meeting that
the e-mail “doesn’t look like an e-mail we ever got.” Due to the fact that the format of
the e-mail sent to NASA by the congressional committee staff had been changed, the
Deputy Press Secretary concluded after a cursory examination that he did not recognize
the reformatted e-mail. During our interview with the Deputy Press Secretary and after
he examined the e-mails more carefully, he acknowledged that the e-mails were the same.
So, despite the fact that Messrs. Mould and Acosta denied receiving the original e-mail,



2
    The reformatting of the e-mail consisted of it being retyped into a Microsoft Word document. In this re-
    typing, there were two typos. On the second line of the first paragraph, the word “comment” appeared as
    “comments” and in the third paragraph, the word “upcoming” appeared as “coming.”

                                                                                             Appendix E
                                                                                            Page 10 of 16
they called a meeting to discuss this e-mail with the same person to whom one of them
had forwarded the original e-mail.

In summary, we believe that the questioned e-mail was sent and properly addressed to
three people. Of these three, only one person acknowledges receiving it. The two others,
Messrs. Mould and Acosta, deny it. Forensically, however, we proved that Mr. Acosta’s
computer received it and that it was forwarded to a member of Mr. Acosta’s staff for
comment. Further, both Mr. Acosta and Mr. Mould deny the accuracy of the contents of
the e-mail, but this is contradicted by the other participants in the teleconference, the
contemporaneous notes taken by one of the participants and the actions taken by the
Goddard Space Flight Center Public Affairs Office Chief to notify Dr. Hansen’s
supervisors of the changes in policy outlined in the teleconferences. Their denial of the
receipt is also inconsistent with their actions taken in response to congressional interest
concerning the questioned e-mail insomuch they sought a meeting with the very person to
whom Mr. Acosta forwarded the e-mail. Based on the totality of the evidence, to include
the volatile nature of this issue at the time, and that Mr. Acosta was Mr. Mould’s
subordinate, we stand by our comments in the Investigative Summary that the e-mail was
successfully delivered to and received by the computer of at least one senior Public
Affairs Official. And in the off chance it was not delivered to Mr. Mould’s account or it
was accidently deleted, 3 etc., it defies logic that Mr. Acosta would not have discussed
this subject with him.

The Agency’s comments also claim that the OIG’s Investigative Summary
mischaracterizes Mr. Mould’s role in directing Mr. George Deutsch to deny National
Public Radio’s request to interview Dr. Hansen. On page 3 of their comments
(Appendix D), the Agency states:

          Further, the Report goes on to attribute the direction to deny the NPR interview to Mr.
          Mould. Mr. Deutsch apparently did not claim that Mr. Mould was involved. There is no
          evidence that he was involved. In fact, there does not appear to be an allegation from any
          source that he was involved, yet the OIG concludes that ‘Mould and Acosta intimated that
          Mr. Deutsch had acted alone in denying the request from National Public Radio, when, in
          fact, Mr. Deutsch was simply carrying out their orders or intent.’ ([Draft] Report, p. 47)
          [Investigative Summary pp. 40-41]. This conclusion is simply irresponsible.”

The denial of the National Public Radio request to interview Dr. James Hansen was a
central issue of the investigation and one for which we expended extensive investigative
resources. The investigation of this matter included numerous interviews, including


3
    The fact that we could not find the December 20, 2005, e-mail on Mr. Mould’s computers is not
    conclusive that he did not receive it. NASA OIG conducted forensic analyses of the two NASA
    computers issued to and used by Mr. Mould during the time period material to this inquiry. Pursuant to
    normal procedures, Mr. Mould’s first computer’s hard drive (the one in use during December 2005) was
    “wiped” and only a minimal amount of data could be retrieved from that system. His second computer,
    issued March 26, 2006, was also examined, revealing gaps in the stored e-mails. The first available
    series of e-mails begins on August 4, 2005, and ends on August 5, 2005; the next series of available e-
    mails begins on January 3, 2006, and ends on November 19, 2006.


                                                                                            Appendix E
                                                                                           Page 11 of 16
interviews with the Deputy Administrator and other members of the NASA senior staff,
as well as a review of the electronic correspondence traffic surrounding the decision to
deny the request for interview. The conclusions reached—that Mr. Acosta and
Mr. Mould “intimated” that the NPR denial was made solely by George Deutsch and that,
in fact, Mr. Deutsch was following the direct orders or intent of Mr. Acosta and
Mr. Mould—is supported by the evidence.

In Mr. Acosta’s January 3, 2007, interview with NASA OIG Special Agents and Counsel
to the Inspector General, Mr. Acosta stated that Mr. Deutsch handled the interactions
with the National Public Radio affiliate regarding their request to interview Dr. Hansen.
He stated that after the Agency received the interview request, Mr. Deutsch briefed the
Associate Administrator for the Science Mission Directorate. According to Mr. Acosta,
the Associate Administrator told Mr. Deutsch that Dr. Hansen should only be interviewed
about his science and that other NASA officials should participate in the interview to
answer any policy questions that may arise. Again, according to Mr. Acosta,
Mr. Deutsch relayed this message to the National Public Radio affiliate, which then
refused that option. Mr. Acosta stated that while Mr. Deutsch may not have presented
NASA’s response as completely as he could have, it was, indeed, Mr. Deutsch who
handled this interview request.

We then interviewed the then Associate Administrator for the Science Mission
Directorate. She recalled being approached by Mr. Deutsch or another Headquarters
Office of Public Affairs official about conducting the National Public Radio interview.
The Associate Administrator for the Science Mission Directorate refused this invitation.
It was clear to her that Mr. Deutsch did not want Dr. Hansen interviewed and that using
Dr. Hansen for any portion of the interview was not an option. Her opinion was that
other scientists with less public exposure should be considered if Dr. Hansen was not
going to be made available. Her statements, therefore, are in contradiction to
Mr. Acosta’s account (to us) of the events.

Mr. Mould was first interviewed by this office on September 11, 2007. During the
interview, Mr. Mould stated that he had no interaction with Mr. Deutsch concerning the
National Public Radio interview request; however, he believed that Mr. Deutsch had
processed the request correctly. According to Mr. Mould, Mr. Deutsch followed the
procedures in place by contacting the Science Mission Directorate chain of command to
determine who would handle any policy questions that would come up in the interview.
Mr. Mould stated that a decision was made that it would be acceptable for Dr. Hansen to
address the science issues but any policy type questions needed to be handled by senior
NASA management officials. (This statement, similar to that by Mr. Acosta, is also
contradicted by the statements of the former Associate Administrator for the Science
Mission Directorate, by the contemporaneous e-mails sent by Mr. Deutsch internally and
to the National Public Radio representatives and by the sworn and unsworn statements of
Mr. Deutsch.) Mr. Mould stated that the situation could have been better handled but
stressed that there was no attempt to stifle Dr. Hansen. In response to a specific question
concerning whether he believed that Mr. Deutsch unilaterally made the decision to stop



                                                                              Appendix E
                                                                             Page 12 of 16
Dr. Hansen from participating in the interview, Mr. Mould responded that he did not have
sufficient information to respond.

During this office’s interview of the Deputy Administrator, she stated that she supervised
a review of the NASA policies regarding communication with the public. Her
assignment came as a result of the January 2006 New York Times article concerning the
National Public Radio request to interview Dr. Hansen. This article also prompted
Congressional interest from the Chief of Staff of the US House of Representatives’
Committee on Science, who called her about the interview request. As discussed in the
Investigative Summary (pp. 43–44), the Deputy Administrator was relatively new to
NASA at the time. She discussed the issue with Dr. Griffin who agreed that he would get
the message out to NASA employees that suppression/censorship would not be tolerated
and that she would direct an inquiry into whether or not there was suppression,
particularly in the case of Dr. Hansen and the National Public Radio interview denial. As
part of this review she met with Mr. Mould and Mr. Acosta. From this meeting she
learned from Mr. Mould and Mr. Acosta that George Deutsch had handled the National
Public Radio interview request denial. The Deputy Administrator stated that she had no
reason to disbelieve Messrs. Mould and Acosta, and that Dr. Griffin and the NASA Chief
of Staff also believed them. The Deputy Administrator also advised this office that
Messrs. Mould and Acosta told her that there was no suppression of global warming
information. She also met with Mr. Deutsch and reviewed some of his e-mail
correspondence and documentation wherein he made controversial statements – related
and unrelated to the NPR denial issue. As a result, she advised this office that she
concluded that Mr. Deutsch interfered with the interview request and that he had acted
alone in this interference. She opined that she had no reason to believe that he had acted
at the direction of Mr. Acosta or Mr. Mould or any other NASA officials.

The evidence reflects that Messrs. Mould and Acosta told the Deputy Administrator that
Mr. Deutsch solely handled the National Public Radio interview request; that Mr. Acosta
told this office that Mr. Deutsch handled the interview request and that Mr. Mould opined
that Mr. Deutsch handled the issue correctly and that he did not have sufficient
information to state unequivocally that Mr. Deutsch unilaterally handled the denial.

In regard to the issue of whether or not Mr. Deutsch was following the orders or intent of
Mr. Acosta and Mr. Mould, our review of the evidence gathered, again, supports this
office’s conclusions as stated in the Investigative Summary (p. 44). Interviews conducted
with Mr. Deutsch, Mr. Mould, and the Associate Administrator for the Science Mission
Directorate, as well as the contemporaneous e-mail traffic concerning the issue of the
interview request, all reflect preponderant evidence that Mr. Deutsch’s actions were taken
as a result of direct orders from Mr. Acosta and that these directions were in keeping with
the “right of first refusal” policy (that was contrary to NASA regulations) that was in
place at the time of the interview and endorsed by Mr. Mould in his capacity as Assistant
Administrator for Public Affairs. In fact, it was this policy that was one of the subjects of
the previously discussed teleconference and questioned e-mail.




                                                                               Appendix E
                                                                              Page 13 of 16
During multiple interviews of Mr. Deutsch he stated that the “right of first refusal” policy
existed in practice prior to the December 15, 2005, teleconference but that the only time
he was asked to invoke the policy was when Mr. Acosta directed him to do so in response
to the National Public Radio interview request. According to Mr. Deutsch, Mr. Acosta
directed him to ask the Associate Administrator and the Deputy Associate Administrator
of the Science Mission Directorate to conduct the interview. According to Mr. Deutsch,
Mr. Acosta made it clear to Mr. Deutsch that Dr. Hansen was not to do the interview. In
his March 19, 2007, hearing before the House Committee on Oversight and Government
Reform, Mr. Deutsch testified:

          In December 2005, National Public Radio (NPR) asked for an interview with Dr. Hansen.
          NASA Press Secretary Dean Acosta decided to offer NPR interviews with senior SMD
          personnel instead. These ultimately included Dr. Mary Cleave, Dr. Colleen Hartman and
          Dr. Jack Kaye. NPR declined to interview any of these three scientists.

Mr. Acosta’s directions concerning Dr. Hansen not conducting the interview were further
corroborated through contemporaneous conversations between Mr. Deutsch and another
Headquarters Office of Public Affairs employee (whom we interviewed) wherein
Mr. Deutsch was prompted to let Mr. Hansen do the interview but that Mr. Deutsch
replied that he could not because Mr. Acosta had directed him not to.

In an e-mail to the Deputy Associate Administrator for the Science Mission Directorate,
Mr. Deutsch wrote, “We just had this interview request sent to us, and the details are
below. We discussed it with the 9th floor, and it was decided that we’d like you to
handle this interview.” E-mails from Mr. Deutsch quoted in the Investigative Summary
(pp. 39–40) reflect that Mr. Deutsch attributed his instructions on this matter specifically
to Mr. Acosta.

In summary, the evidence gathered by this office reflects that Messrs. Mould and Acosta
told the Deputy Administrator that Mr. Deutsch handled the National Public Radio
request to interview Dr. Hansen. Mr. Acosta related the same information to this office
during his January 3, 2007, interview. Furthermore, the evidence strongly supports the
conclusion that Mr. Deutsch was acting at the direction of Mr. Acosta and that those
directions and Mr. Deutsch’s actions were in keeping with the “right of first refusal”
policies that Mr. Mould and Mr. Acosta supported, and which was discussed as part of
the December 15, 2005, teleconference to which both Messrs. Mould and Acosta were
party.

Finally, the Agency’s comments question the use of the phrase, “mendacity of senior
public affairs officials” contained within our Investigative Summary (p. 47). 4 The term



4
    The Agency’s response omits the word “apparent” that the OIG used in the Draft Summary to modify the
    word “mendacity” and additionally states that the OIG’s report concludes that Mr. Mould “lied about”
    the e-mail—a conclusion not made by the OIG. Further, the Agency also questions the “need” for such
    references. Federal courts have held that false or misleading exculpatory statements may be used as
    circumstantial evidence of consciousness of guilt and may strengthen inferences supplied by other pieces

                                                                                             Appendix E
                                                                                            Page 14 of 16
“apparent mendacity” was chosen with care to describe an apparent course of conduct
that included not only the issues relating to the NPR interview request, the December 20,
2005, e-mail, the subject matter of the teleconferences on December 15 and 16, 2005, but
also a pattern of sustained denials pertaining to general allegations of improper
interference.

In the face of strong evidence to the contrary, the collective body of senior NASA Public
Affairs Officials continued to deny to our investigators, congressional staff, and senior
NASA management, the existence of any type of suppression, censorship or improper
interference. (Mr. Acosta described such allegations as “ridiculous.”) Despite the fact
that even the NASA Administrator recognized that the Agency had dissemination
problems—and moved quickly to resolve them, these officials essentially maintained that
these problems were caused primarily by the high volume of press releases and the fact
that the scientists’ drafts needed editing due to their poor writing skills.

Consistent with this observation, our Investigative Summary (p. 5) also states that “[w]ith
limited exceptions, NASA officials were cooperative in conducting this investigation.”
Those “limited exceptions” referred to our dealings with the NASA Headquarters Office
of Public Affairs officials, when, for example,

     •    One former Headquarters Office of Public Affairs official attempted to avoid an
          interview with this office by claiming a lack of knowledge of the time of the
          interview despite the interview having already been confirmed with him and his
          administrative assistant. The interview required the Chief of Staff’s
          intervention to ensure it happened.

     •    Attempts on the part of another senior NASA Headquarters Office of Public
          Affairs official to stymie the release of the Agency-wide “NASA Inc.” request
          for climate change information (attached to the Investigative Summary). This
          office was again forced to invoke senior NASA management’s help in order to
          get the request released.




 of evidence—though they do not alone prove guilt. In this investigation, possible false or misleading
 statements pertaining to the subject matter investigated (e.g., the substance of a teleconference pertaining
 to Dr. Hansen, or denying receipt of a confirming e-mail), and made while knowing that the statements
 were false or misleading, may suggest that the person (s) making such false or misleading statements
 was/were aware of his/their personal culpability as to the underlying subject matter. On the other hand,
 such statements could be considered as a declarant’s truthful recollection. In our view, the issue is
 relevant and material to the report’s focus on suppression and media access matters.



                                                                                             Appendix E
                                                                                            Page 15 of 16
Adjustments to the Draft Investigative Summary

p. 15. Deleted: “Those limitations, when read in context with the rest of the Act, suggest
that dissemination is the rule, rather than the exception, but take into account instances in
which non-dissemination is necessary for overriding purposes that are otherwise
consistent with the Act. Nowhere in the Act, or its implementing regulations, is there
authority to deny, alter, or delay the dissemination of research information under the
“practicable and appropriate” limitations, because the information is in some respects,
inconsistent with Administration policy or image.” Inserted: “We do not believe,
however, that the Agency’s statutory mandate or regulatory commitments, with specific
reference to its public affairs functions, allow for the intentional distortion of information
or science in press releases the Agency—in its exercise of discretion—has elected to
issue. Likewise, purposefully withholding or delaying meritorious releases to ostensibly
meet political objectives would also appear to stretch the mandate to provide “the widest
practicable and appropriate dissemination of information concerning its activities and
results thereof.”

p. 18. Added a footnote explaining Mr. Mould’s initial review of the Public Affairs
Regulations that he inherited upon assuming the duties of Assistant Administrator for
Public Affairs.

p. 22. The word “Obscurantism” was added to “Dissembling” to more clearly describe
this particular category of alleged interference. Also, in the description of this category,
“NASA Headquarters Office of Public Affairs” was inserted in replace of “Headquarters
public affairs” for clarity. “Obscurantism” is added to each of the examples previously
categorized as “Dissembling” on p. 27, p. 29, and p. 30.

p. 30. “Self Censorship” was added to describe the Spitzer news release example.

p. 42. The words “Press Conference” is replaced by “Interview” in the title of Section E
for clarity.

p.47-48. The sentence referring to an “unflinching belief” was changed to “Climate
change scientists . . . believed . . . .” The term “one or more” Public Affairs officials was
added for clarity.

Adjustment to Management Comments

p. 4 of Management Comments (Appendix D). The Agency states that they attached a
copy of the new public affairs regulations. An outdated version was attached to their
response, so we are attaching the current version as Appendix F. The current regulations
can be found in the Code of Federal Regulations at 14 C.F.R. §§ 1213.100 – 1213.109
(2008). We note that on page 2 (Appendix D), the Agency’s citation to the Space Act
appears to have a typo, § 203(c)(3) instead of § 203(a)(3).




                                                                                 Appendix E
                                                                                Page 16 of 16
Appendix F
Appendix F
Page 1 of 6
Appendix F
Page 2 of 6
Appendix F
Page 3 of 6
Appendix F
Page 4 of 6
Appendix F
Page 5 of 6
Appendix F
Page 6 of 6
